<html>
<title> - INVASIVE SPECIES</title>
<body><pre>[Senate Hearing 111-704]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-704
 
                            INVASIVE SPECIES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   TO

 EXAMINE THE FEDERAL RESPONSE TO THE DISCOVERY OF THE AQUATIC INVASIVE 
              SPECIES ASIAN CARP IN LAKE CALUMET, ILLINOIS

                               __________

                             JULY 14, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
62-181                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed8a9d82ad8e989e998588819dc38e8280c3">[email&#160;protected]</a>  

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                  DEBBIE STABENOW, Michigan, Chairman

BYRON L. DORGAN, North Dakota        SAM BROWNBACK, Kansas
TIM JOHNSON, South Dakota            JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, ARIZONA
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Carl, Leon, Midwest Area Regional Director, U.S. Geological 
  Survey, Department of Interior, Ann Arbor, MI..................     8
Carter, Robert E., Jr., Director, Indiana Department of Natural 
  Resources......................................................    40
Eder, Tim, Executive Director, Great Lakes Commission, Ann Arbor, 
  MI.............................................................    26
Rogner, John, Assistant Director, Illinois Department of Natural 
  Resources, Springfield, IL.....................................    22
Stabenow, Hon. Debbie, U.S. Senator From Michigan................     1
Sutley, Nancy, Chair, White House Council on Environmental 
  Quality........................................................     4

                                APPENDIX

Responses to additional questions................................    43


                            INVASIVE SPECIES

                              ----------                              


                        WEDNESDAY, JULY 14, 2010

                                       U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:32 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Debbie 
Stabenow presiding.

 OPENING STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM 
                            MICHIGAN

    Senator Stabenow. Call to order the Water and Power 
Subcommittee. It's my pleasure to welcome all of you here 
today.
    We know we have a number of people listening, through 
streaming on the Internet, as well, who are extremely 
interested, in Michigan and around the country. So, we welcome 
people who are listening this afternoon.
    As I start--and I expect that Senator Brownback will be 
joining me as my ranking member very shortly, and we'll 
certainly turn to him for his comments--I also want to put into 
the record a statement from Senator Durbin, who is cosponsoring 
the Permanent Prevention of Asian Carp Act with me in the 
Senate, along with a number of cosponsors. Congressman Dave 
Camp also has a statement that will go into the record. 
Congressmen Camp and I are working together on both pieces of 
legislation, the Carp Act, that addresses the closing of the 
locks, as well as the Permanent Prevention of Asian Carp Act. 
So, I will place those into the permanent record, as well as 
any other comments from colleagues.
    [The prepared statements of Senator Durbin and 
Representative Camp follow:]
 Prepared Statement of Hon. Richard Durbin, U.S. Senator From Illinois
    Thank you, Chairwoman Stabenow, for holding this hearing today. I 
share your commitment to take all necessary action to prevent Asian 
carp from establishing in the Great Lakes and commend your leadership 
on this issue.
    Lake Michigan is of enormous environmental, recreational and 
economic value to the state of Illinois. The Great Lakes are a national 
treasure that must be protected.
    Since 2003, we have been working with local and state agencies in 
Illinois and with federal agencies, primarily the U.S. Army Corps of 
Engineers, to stop the progress of the Asian carp in Illinois 
waterways. We have had some success. The Corps has completed 
construction of an electric carp barrier in the Chicago Sanitary and 
Shipping Canal. The barrier has effectively slowed the migration of the 
fish north to Lake Michigan, buying us time to look at other, longer-
term options.
    But on June 22, 2010, our worst fears were confirmed. An Asian Carp 
was caught in Lake Calumet, just miles from Lake Michigan. The Illinois 
Department of Natural Resources reports the 19-pound male fish likely 
was not in spawning condition, but that capture cannot be taken 
lightly. A live fish on the wrong side of the electric barrier means we 
need to redouble our efforts and do everything in our power to stop 
this invasive species from entering Lake Michigan.
    Recently, the Chairwoman and I, along with other senators 
representing Great Lakes states, asked this Administration to take 
immediate action and to appoint a coordinated response commander for 
Asian carp.
    The Obama Administration has developed an Asian Carp Control 
Framework that includes several meaningful measures to prevent the 
spread of Asian carp. One strategy for containment involves bringing in 
commercial fisherman to limit the spread of the fish, and in fact, it 
was a commercial fisherman who captured the live Asian carp last month. 
Several local, state and federal agencies already are working together 
in the effort to contain the Asian carp, and the coordinated effort of 
the agencies is commendable. With the discovery of a live fish on the 
wrong side of the carp barrier and Asian carp eggs in Indiana and Ohio, 
it is clear that a coordinated effort alone is not sufficient.
    A coordinated response commander for Asian carp would provide the 
insistent, hands-on leadership that prevents the Asian carp from 
establishing itself in Lake Michigan and the Great Lakes. This 
commander would coordinate federal, state and local agencies to 
implement immediate, emergency actions in the next few months while we 
continue to determine effective long-term solutions. I am encouraged 
that the Administration is considering this request.
    A few weeks ago, Chairwoman Stabenow and I introduced a bill 
directing the US Army Corps of Engineers to undertake an expedited 
study of hydrological separation. The idea behind a hydrological 
separation is to create a physical separation between the Great Lakes 
and the Mississippi water basins. This may offer the best hope for a 
long-term solution for containing not only this, but other invasive 
species.
    Hydrological separation is a complex feat of engineering. While the 
Army Corps of Engineers has already started a broad examination of 
methods to control the spread of invasive species, we cannot wait for 
that comprehensive study. Our bill would create a separate, expedited 
study of how hydro separation could work, its environmental impact, and 
an estimate for construction time.
    Finally, I have asked the federal agencies working with us in this 
effort to use everything at their disposal to step up the fight, 
including a Rotenone application in the area where the live carp was 
caught in Lake Calumet. I look forward to hearing more about their 
emergency plans.
    The Great Lakes are a national treasure, a significant economic 
resource and an invaluable recreational ecosystem. The Asian carp have 
the potential to debilitate a multi-billion dollar fishing industry and 
significantly impair the tourism industry. Of far more significance, 
though, is the threat this invasive species poses to the ecological 
viability of the Great Lakes. Preventing the Asian carp from entering 
Lake Michigan should be a national priority.
    I am committed to fighting this aggressive species and look forward 
to working with my colleagues representing the Great Lakes, the 
Administration, and federal and state agencies to ensure that efforts 
to contain Asian carp are coordinated, comprehensive and effective.
                                 ______
                                 
Prepared Statement of Hon. Dave Camp, U.S. Representative From Michigan
    Madame Chairman, I am pleased you are holding this hearing today, 
and appreciate the opportunity to submit my comments for the record on 
this very important topic.
    The Great Lakes are facing a dire and immediate threat, one poised 
to destroy the Great Lakes' $7.5 billion fishing industry and the 
800,000 jobs it supports--and this region cannot afford to lose--along 
with its vitally important ecosystem.
    The threat: Asian Carp. These four foot long, 100-pound carp eat 
half their body weight daily and are extremely prolific, crowding out 
native species and decimating habitats as they spread. They are better-
suited to the climate of the Great Lakes region than the Mississippi 
River, making the Lakes all the more vulnerable to their devastation.
    The invasive carp have been descending upon our Lakes faster than 
anyone thought. Despite our efforts to stop Asian Carp from entering 
the Great Lakes, on June 22, 2010, a live Bighead Asian Carp was 
captured less than six miles from Lake Michigan in Lake Calumet. This 
fish had direct access to the Great Lakes and was north of all barriers 
to stop its spread. It is clear we must do more immediately.
    We must act with the utmost urgency and immediacy to prevent other 
Asian Carp from reaching the Great Lakes. It is important that we come 
together to make President Obama's promise of a ``zero-tolerance'' 
policy on invasive species a reality.
    It is my hope that this hearing will spur the kind of swift action 
that is needed to protect the environment, beauty, industry, and 
economy of the Great Lakes. First, that means closing the locks 
temporarily to halt the entry of Asian Carp into the Great Lakes. I was 
pleased to introduce with Senator Stabenow the CARP ACT, Close All 
Routes and Prevent Asian Carp Today Act, to meet this goal.
    But now that a carp has been found past all electronic barriers, I 
believe we must move swiftly to build on the CARP ACT to put in place a 
permanent solution to prevent Asian Carp from establishing populations 
in the Great Lakes.
    Senator Stabenow and I have also introduced new legislation, the 
Permanent Prevention of Asian Carp Act, that requires the Army Corps of 
Engineers to develop a plan ensuring permanent hydrological separation 
between the Mississippi River and Great Lakes basins. Attorney General 
Mike Cox has also announced he is renewing legal challenges to 
immediately close the locks.
    It is my sincerest hope that Congress take the necessary steps to 
prevent a viable population of Asian Carp from destroying our Great 
Lakes. The Lakes are too vitally important to the region and country. I 
hope that today's hearings will compel Congress and this Administration 
to act with the utmost urgency, pass the CARP ACT and the Permanent 
Prevention of Asian Carp Act, and ensure the future of the Great Lakes.
    Thank you.

    Senator Stabenow. There's certainly tremendous concern 
about this issue, as there should be, in Michigan and around 
the country.
    In 2008, a 15-year-old boy named Seth Russell was out 
tubing on Lake Chicot, in Arkansas. Like many folks in the 
State of Michigan, he was riding on an inner-tube being pulled 
along by a motor boat when an Asian carp jumped out of the 
water and hit him directly in the face.
    We have a couple of posters here today, but one--if you can 
imagine--I can't really imagine--and, as much as I love 
swimming in the Great Lakes, and having grown up in Michigan, 
and how important the Great Lakes are to us--but, imagine 
trying to go out and boat or tube or ski or swim, with the 
Asian carp jumping, as they are in this picture. It's actually 
a very frightening thing to think about.
    In this case, the fish hit Seth so hard it killed the fish. 
Seth was knocked unconscious. He was rushed to the hospital 
with a broken jaw and whiplash.
    This--these species of Asian carp, called the silver carp, 
can weigh up to 40 pounds. There are others that can get up to 
100 pounds. Getting hit in the face by one of these is like 
getting hit by a bowling ball, according to people who, in 
fact, have been hit by these fish.
    As we established at our previous hearing in February, 
Asian carp were introduced in the United States in the 1970s, 
when they were used to control algae growth in catfish farms 
down south. Floods allowed them to escape from the ponds and 
reach the Mississippi River, where they have left a trail of 
destruction on their way north.
    As we know, Asian carp feed on plankton, the foundation of 
the food chain, and often eliminate the ability of native fish 
species to find food.
    The 40-pound silver carp, which jumps out of the water at 
people, is the small variety of Asian carp, as I mentioned. The 
larger bighead carp grows to be about 110 pounds.
    If these fish establish populations in the Great Lakes, it 
would devastating for our $7-billion fishing industry and our 
$16-billion recreational boating industry, and it would cause 
irreversible ecological harm. That's the reason that we are so 
focused on doing whatever we can to prevent that from 
happening.
    In February of this year, the subcommittee received 
testimony related to the Asian Carp Control Strategy Framework. 
We appreciate very much Chairwoman Nancy Sutley being with us 
today, as well as Dr. Leon Carl, for joining us again--for both 
of you being here.
    Since that hearing, both Federal and non-Federal efforts 
have continued to address this very serious threat to the Great 
Lakes. Since then, Asian carp have been found in Lake Calumet, 
Illinois, and in the Wabash River in Indiana. The purpose of 
this hearing is to examine the Federal response to these 
discoveries, and to get an update on the ongoing activities of 
the Federal Government to address this urgent issue.
    The threat from the Wabash River is of particular concern, 
as a new issue to us. As we heard in the February hearing, the 
threat of Asian carps entering into the Great Lakes is not 
limited to the Chicago-area waterways. Asian carp are also 
located in other stream systems, and can migrate to the Great 
Lakes through those avenues.
    Normally, the Wabash and Maumee Rivers are not connected. 
But, ever so often, about once a year, there's flooding in the 
rivers that creates a brief connection. Of concern, in May a 
spawning event of Asian carp was detected about 100 miles 
downstream from this connection. If Asian carp were able to 
cross from the Wabash into the Maumee River, they would have a 
clear and uninhibited path to Lake Erie.
    Both Federal and non-Federal efforts have been underway to 
stop this from happening. Today, we will receive an update on 
those efforts and talk further about what can be done. 
Obviously, I feel--we feel--a tremendous sense of urgency to 
continue doing what is being done in the short run, but to 
address this in the long run.
    The Great Lakes really are about our way of life for those 
of us who represent States around the Great Lakes, as well as 
providing 20 percent of the world's fresh water and a 
tremendous, tremendous natural resource--drinking water, as 
well as in tourism and fishing and boating and, basically, the 
beauty that I would all invite you to. On a summer day, when 
you are in a 100 degrees in DC, and 100-percent humidity, come 
to the Great Lakes. We will give you low humidity and 80 
degrees and a beautiful opportunity to express--to enjoy the 
fresh water that makes up the Great Lakes and, frankly, gives 
us a tremendous sense of urgency about what is happening today.
    Let's start, first, with the honorable Nancy Sutley, who is 
chair of the White House Council on Environmental Quality. We 
welcome you, again, and appreciate your focus and your 
intensity on this issue.

   STATEMENT OF NANCY SUTLEY, CHAIR, WHITE HOUSE COUNCIL ON 
                     ENVIRONMENTAL QUALITY

    Ms. Sutley. Thank you, Madam Chair. Thank you for holding 
this hearing, and for your continuing interest and efforts in 
this very important subject.
    As you said, the Great Lakes face perhaps their most 
significant threat from an invasive species yet from the Asian 
carp. Today I'll talk about the immediate and long-term actions 
that are underway to prevent the environmental and economic 
harm that this invasive species could cause.
    The Obama administration is executing a robust, 
coordinated, and proactive Asian Carp Control Strategy 
Framework that unifies the Federal, State, and local actions to 
combat this invasive species with a multi-tiered defense of the 
Great Lakes while we are working on longer-term biological 
controls.
    Since I last testified before this committee in February, 
the administration has updated the framework, and has 
accomplished, or is on track to meet, all the milestones that 
were laid out in the plan. The goal of this strategy, of all of 
the short-and long-term actions, is to prevent Asian carp from 
establishing self-sustaining populations in the Great Lakes.
    As part of the framework, Federal and Illinois State 
officials have been conducting intensive fishing operations to 
locate Asian carp along the Chicago Area Waterway System, or 
CAWS, since February. On May 25, the Asian Carp Regional 
Coordinating Committee completed a weeklong sampling and data-
collection operation on the Little Calumet River in South 
Chicago, and used rotenone, a fish toxicant. This operation 
yielded more than 130,000 pounds of fish, including more than 
40 species. At that point, no bighead or silver Asian carp were 
found among them.
    On June 22, as you're aware, a routine sampling that's 
conducted under the framework led to the first capture of a 
live bighead Asian carp above the electric barrier system. The 
framework that we have in place allowed us to both identify and 
capture the carp in the waterway, and to respond quickly, and 
in a coordinated way, to intensify actions to detect and 
capture and additional Asian carp. To date, no additional carp 
have been found.
    We believe that the capture of this live carp, as part of 
our monitoring plan, shows that the framework is accomplishing 
what it intends. The plan was designed to pinpoint and remove 
any carp that may already be in the Chicago Area Waterway 
System. You'll hear more from John Rogner, of the Illinois 
Department of Natural Resources, who is chair of the Asian Carp 
Regional Coordinating Committee, about specific actions taken 
in the--in CAWS since February, and the immediate increase in 
actions taken in Lake Calumet, once the carp was captured 
there.
    The Army Corps of Engineers has also undertaken the actions 
laid out in the framework. In April, using the authority from 
Congress, under section 126 of the Energy and Water Development 
and Related Agencies Appropriations Act, the Corps awarded a 
multimillion-dollar contract for construction of a concrete 
barrier and fencing between the Chicago Sanitary and Ship Canal 
and the Des Plaines River. This is designed to prevent fish 
passage around the electric barrier in flooding events where 
the 2 water bodies mix.
    We urge Congress to extend, in time and in geography, the 
Corps' 126 authority, which expires in October 2010 and appears 
to be only limited to CAWS, so that we can continue the 
emergency actions to battle the Asian carp.
    In addition to the concrete barrier and fencing, 
construction and operation of a third electric barrier is 
underway and on schedule to be completed in October of this 
year. These efforts are meant to keep the carp at bay in the 
short term. You will hear more from Dr. Leon Carl about 
research into long-term biological controls being developed by 
USGS.
    In other long--longer-term actions, the Army Corps is 
collaborating with Federal, State, regional, and local agencies 
and nongovernmental organizations on an interbasin transfer 
study to explore all options and technologies for reducing the 
risk of Asian carp transfer between the Mississippi River and 
the Great Lakes. This includes an analysis of hydrological 
separation of the Mississippi River from Lake Michigan.
    As the administration indicated in February, we're 
committed to proactively investigating areas outside of the 
CAWS that may be vulnerable to Asian carp. As you mentioned, a 
new area of focus is the connection between the Wabash and 
Maumee Rivers, near Fort Wayne, Indiana. Currently, USGS, the 
Fish and Wildlife Service, the Corps, and the Indiana 
Department of Natural Resources are studying the area to better 
understand the risk and to detail some next steps.
    The administration has received a letter from you, and 
other Great Lakes representatives, requesting that we name a 
response commander for Asian carp to oversee diverse actions 
underway to contain the spread of carp in the region. We're 
looking at the request and moving forward.
    In conclusion, we share your great concern about this 
issue, and we're committed to preventing the spread of Asian 
carp into the Great Lakes. We believe our management actions to 
control the Asian carp are robust, and that Federal, State, and 
local agencies are effectively coordinating with each other. We 
believe we're succeeding in our aim to keep Asian carp from 
establishing themselves in the Great Lakes.
    Finally, I want to thank Congress for fully funding the 
President's FY 10 request for the Great Lakes Restoration 
Initiative, without which many of these actions would not be 
possible.
    Thank you for the opportunity to appear today. I look 
forward to your questions. Thank you.
    [The prepared statement of Ms. Sutley follows:]

   Prepared Statement of Nancy Sutley, Chair, White House Council on 
                         Environmental Quality

    Thank you Chairwoman Stabenow and Ranking Member Brownback for 
holding this hearing.
    Invasive species pose serious threats to our ecosystems. The Great 
Lakes in particular have been devastated by invaders such as the sea 
lamprey, zebra mussel and the round goby. The Great Lakes now face 
perhaps their most significant invasive species threat yet from Asian 
carp. This time, however, we have an opportunity to prevent the 
environmental and economic harm that this invasive species could cause, 
and are working urgently to do so.
    The Obama Administration is executing a robust, coordinated and 
proactive Asian Carp Control Strategy Framework (Framework), developed 
in February and updated in May 2010 by the U.S. Army Corps of Engineers 
(USACE), Environmental Protection Agency (EPA), U.S. Fish and Wildlife 
Service (FWS), U.S. Geological Survey (USGS), the U.S. Coast Guard 
(USCG), and the Great Lakes Fisheries Commission (GLFC) in cooperation 
with state and local agencies. This Framework unifies Federal, state 
and local actions to combat invasive species with a multi-tiered 
defense of the Great Lakes from Asian carp while longer-term biological 
controls are developed. Since I last testified before this Committee in 
February, the Administration has updated the Framework and has 
accomplished or is on track to meet the milestones it laid out.

         OVERVIEW OF THE ASIAN CARP CONTROL STRATEGY FRAMEWORK

    The goal of the Administration's strategy of 32 short-and long-term 
actions is to prevent Asian carp from establishing self-sustaining 
populations in the Great Lakes. In the near term, the Framework focuses 
on keeping Asian carp out of the Chicago Area Waterway System (CAWS) 
and Great Lakes, and on removal of Asian carp in the CAWS. Measures to 
accomplish this include environmental DNA (eDNA) monitoring, contract 
commercial fishing, and conventional techniques such as electrofishing 
and netting.
    As part of the Framework, Federal and Illinois State officials have 
been conducting intensive fishing operations to locate Asian carp along 
the CAWS since February 17, 2010. On May 25, the Asian Carp Regional 
Coordinating Committee (ACRCC) completed a week-long sampling and data 
collection operation on the Little Calumet River in South Chicago that 
utilized rotenone, a fish toxicant. This operation yielded more than 
130,000 pounds of fish, including more than 40 species. No bighead or 
silver Asian carp were found among them.

              FRAMEWORK PROGRESS AND INTENSIFIED RESPONSE

    On June 22, as you are aware, routine sampling under the Framework 
led to the discovery of a live bighead Asian carp above the electric 
barrier system for the first time. The aggressive Framework the 
Administration has in place allowed us to both identify and capture 
Asian carp in the waterway and to respond quickly and in a coordinated 
manner to intensify actions to detect and capture any additional Asian 
carp, if present. The ACRCC's member agencies\1\ and contractors 
immediately increased sampling in Lake Calumet, where the Bighead carp 
was discovered, and the surrounding area. To date, no additional Asian 
carp have been found.
---------------------------------------------------------------------------
    \1\ ACRCC members include IL DNR, IN DNR, OH DNR, USFWS, USACE, 
USEPA, USCG, Great Lakes Fisheries Commission, Metropolitan Water 
Reclamation District of Greater Chicago and city of Chicago.
---------------------------------------------------------------------------
    We believe that the capture of this live carp as part of our 
monitoring plan shows that the Framework is working. The plan assumes 
that a small number of Asian carp may exist in the CAWS, and was 
designed to pinpoint and remove them. You will hear more today from 
John Rogner of the Illinois Department of Natural Resources about our 
actions undertaken in the CAWS since February and the immediate 
increase in actions taken in Lake Calumet once the carp was captured 
there. The Illinois DNR has worked seamlessly with FWS and other 
Federal partners to implement monitoring and control actions for Asian 
carp in the CAWS.
    The U.S. Army Corps of Engineers has also undertaken actions 
pursuant to the Framework. In April, using authority Congress granted 
under Section 126 of the Energy and Water Development and Related 
Agencies Appropriations Act of 2010, and funding provided through the 
Great Lakes Restoration Initiative (GLRI), USACE awarded a multi-
million dollar contract for construction of concrete and fencing 
between the Chicago Sanitary and Ship Canal and Des Plaines River. This 
is designed to prevent fish passage around the electric barrier in 
flooding events where the two water bodies mix. We urge Congress to 
extend in time and geography the USACE's Section 126 authority, which 
expires in Oct 2010 and appears to be limited only to the CAWS, so that 
emergency actions to battle invasive carp can continue as needed.
    In addition, construction and operation of a third electric barrier 
is underway and on schedule to be completed in October 2010.
    All of these efforts are meant to keep the carp at bay in the short 
term. However, it is biological controls such as the ones being 
developed by the USGS that are likely to prevent Asian carp migration 
over the long-term. As Dr. Leon Carl will describe, USGS is conducting 
scientific research into additional methods for controlling Asian carp, 
including Asian carp-specific poisons, methods to disrupt spawning and 
egg viability, seismic technology, and assessment of Asian carp food 
sources and potential habitats.
    In other longer-term actions, USACE is collaborating with Federal, 
state, regional, and local agencies and non-governmental organizations 
on an Inter-Basin Transfer Study to explore all options and 
technologies for reducing the risk of Asian carp transfer between the 
Great Lakes and Mississippi River basins. This includes a comprehensive 
analysis of Asian carp control technologies, including physical or 
hydrologic separation of the Lake Michigan from the Mississippi River 
basin.

                      ASIAN CARP IN OTHER VECTORS

    As the Administration indicated in February, we are committed to 
proactively investigating areas outside of the CAWS that may be 
vulnerable to Asian carp. A new area of focus is the connection between 
the Wabash and Maumee Rivers near Fort Wayne, Indiana. In flood events, 
the Wabash River can hydrologically connect with the Maumee River, 
which runs into Lake Erie, making Asian carp in this area another 
potential threat to the Great Lakes. Currently USGS, FWS, USACE, and 
Indiana DNR are studying the area to better understand the risk and 
what next steps should be. We have expanded the ACRCC to include 
representatives from the States of Indiana and Ohio to ensure an 
effective and coordinated response on a larger front. In addition, we 
continue to provide information to and seek input from other Great 
Lakes states that are not part of the ARCC.
    The Administration received a letter from Chairwoman Stabenow and 
other Great Lakes representatives requesting we name a Federal 
Coordinated Response Commander for Asian carp to oversee the diverse 
actions underway to contain the spread of the carp in the region. We 
are currently evaluating this request.

                               CONCLUSION

    In conclusion, the Administration shares the great concern about 
this issue and is committed to preventing the spread of Asian carp into 
the Great Lakes. I would like to reiterate that our management actions 
to control Asian carp are robust, that Federal, state, and local 
agencies are effectively coordinating with each other, and that we 
believe we are succeeding in our aim to keep Asian Carp from 
establishing themselves in the Great Lakes.
    In addition, I want to thank Congress for fully funding the 
President's FY 2010 request for the Great Lakes Restoration Initiative, 
without which many of these actions would not be possible.
    Thank you for the opportunity to testify today, and I look forward 
to your questions.

    Senator Stabenow. Thank you very much.
    Dr. Leon Carl, we want to welcome you back as director of 
Great Lakes Science Center, the United States Geological 
Survey, in Ann Arbor, Michigan. We want to welcome you back.

 STATEMENT OF LEON CARL, MIDWEST AREA REGIONAL DIRECTOR, U.S. 
  GEOLOGICAL SURVEY, DEPARTMENT OF THE INTERIOR, ANN ARBOR, MI

    Mr. Carl. Chairman Stabenow, thank you for the opportunity 
to testify about or efforts to implement the Federal Asian Carp 
Control Strategy Framework to prevent the establishment of 
Asian carp in the Great Lakes.
    As you indicated, I'm Leon Carl. I'm with the USGS Midwest 
area office. I am accompanied today by Charles Wooley, the 
Region 3 deputy director for the U.S. Fish and Wildlife 
Service.
    The spread of Asian carp into the Great Lakes poses a 
serious ecological and economic threat. The USGS is providing 
biological and hydrological research and expertise to assist in 
the management and control of these fish, and to support 
activities under the auspices of the multi-agency Asian Carp 
Regional Coordinating Committee.
    In light of the recent finding of the bighead carp in Lake 
Calumet, I will update progress made by the USGS and the Fish 
and Wildlife Service to implement the framework and other 
relevant activities.
    The collaboration behind the framework is built upon the 
broad partnership of the Great Lakes Restoration Initiative, or 
GLRI. The GLRI action plan incorporates recommendations of 
hundreds of Great Lakes stakeholders, and targets the most 
significant environmental problems in the Great Lakes, 
including invasive species. It is because of this coordinated, 
multi-agency effort that the Coordinating Committee for Asian 
Carp was able to act immediately to the recent discovery of 
bighead carp in Lake Calumet. As a member of the coordinating 
committee, I assure you that the partners involved realize the 
seriousness of the carp threat, and are committed to preventing 
their establishment in the Great Lakes.
    The Chicago Area Waterway System is only one potential 
Asian carp entry point to the Great Lakes. Other hydraulic 
connections between the Great Lakes and the Mississippi River 
Basin could also provide access for carp eggs, larvae, juvenile 
fish, and adults. The recent observation of Asian carps 
spawning in the Wabash River in Northern Indiana motivated the 
Coordinating Committee to more immediately consider other 
possible pathways for Asian carp to reach the Great Lakes. 
These include the movement of fish from waters inhabited by 
Asian carp, such as the Wabash River, to waters connecting 
directly to the Great Lakes, such as the Maumee River Watershed 
in Ohio. This occurrence is particularly likely during high 
water events, and the area of concern has been identified on 
the map, on my right there, as a red circle. During the past 6 
years, localized flooding has been high enough on at least 6--
or, 4 occasions to connect these 2 watersheds.
    I will now focus on the USGS and Fish and Wildlife Service 
efforts to implement the framework. The Fish and Wildlife 
Service contributed significant resources and personnel during 
the May 10, 2000--during May 2010 rotenone application to the 
Chicago Area Waterway System to support the recovery and 
identification of fish. The USGS conducted dye studies to help 
determine boundaries of the treatment and surface water flows, 
and conducted groundwater monitoring of nearby wetlands. The 
Fish and Wildlife Service also helped produce a draft 
monitoring and rapid response plan, which incorporates many of 
the short-and long-term sampling actions identified in the 
framework. The plan uses an adaptive management approach and 
builds on the growing knowledge of--growing knowledge on Asian 
carp detection, monitoring, behavior, and ecology.
    From February through June 2010, Survey and Service staff 
led and assisted partners with netting and electrofishing 
efforts in the Chicago Area Waterway System, using sampling 
methods outlined in the plan, including intensive localized 
sampling in response to the finding of a bighead carp in Lake 
Calumet. I believe John Rogner will cover this further in his 
testimony.
    As a part of the Feasibility Assessment of Inter-Basin 
Transfer of Aquatic Invasive Species, USGS completed 
geophysical surveys in mid-June along the Chicago Sanitary and 
Ship Canal in the Des Plaines River. These ground-penetrating 
radars, along with other data, will be used to site monitoring 
wells to assess the movement of eggs and larvae of Asian carp 
through the fractured bedrock between the 2 systems.
    USGS is also conducting research to estimate the minimum 
river length and water temperature needed for successful Asian 
carp spawning in the Great Lakes. Toward this end, bighead carp 
were recently spawned in the lab, and their young were raised 
and observed to document the developmental time needed for the 
larvae to be able to swim sufficiently that they can disperse 
into larval fish habitat. This information will be used to 
model habitat requirements and identify rivers in the Great 
Lakes Watershed that may require monitoring and surveillance 
for Asian carp.
    USGS is also working with partners to test the efficacy of 
seismic technology to control nonnative fish. In these 
experiments, we use caged fish that were exposed to a--seismic 
waves from a hydro-gun. Exposure was then monitored with 
hydrophones. The initial conduct--trials were conducted during 
the past 5 weeks, and resulted in direct mortality of some of 
the fish exposed to the blast. We are planning field tests for 
this that will target Asian carp, this fall.
    Last, another project at USGS is determining the method of 
oral delivery of chemicals to better target toxins at Asian 
carp. Methods are currently being developed to orally deliver a 
specific dose of registered fish toxicant to different-sized 
Asian carp. This technology may also be used to exploit the 
immune response of Asian carp to further increase the species 
specificity.
    In conclusion, the USGS and the Service will continue to 
work with our Coordination Committee partners, and in the 
broader context of the GLRI collaboration, to prevent the 
establishment of Asian carp in the Great Lakes. USGS will 
continue to provide the science support required for this vital 
effort, in collaboration with our partners.
    Thank you, Chairman Stabenow, for the opportunity to submit 
this testimony. I will be pleased to answer any questions from 
you at this time.
    [The prepared statement of Mr. Carl follows:]

 Prepared Statement of Leon Carl, Midwest Area Regional Director, U.S. 
      Geological Survey, Department of the Interior, Ann Arbor, MI

    Chairwoman Stabenow and Members of the Subcommittee, my name is 
Leon Carl, and I am the Regional Executive of the U.S. Geological 
Survey (USGS) Midwest Area. Thank you for the opportunity to testify 
about efforts in support of the Federal Asian Carp Control Strategy 
Framework (Framework) to prevent the establishment of Asian carp in the 
Great Lakes. I am accompanied by Charles Wooley, Region 3 Deputy 
Regional Director of the U.S. Fish and Wildlife Service (FWS).
    The USGS, a bureau of the Department of the Interior, conducts 
research to understand the interrelationships among ecological and 
biological systems, Earth processes, and human activities. Our role is 
to provide biological and hydrological scientific expertise and new 
research to assist in the management and control of Asian carp and to 
support activities under the auspices of the multi-agency Asian Carp 
Regional Coordinating Committee (RCC). I will discuss the USGS role in 
more detail later in my testimony.
    On June 22, 2010, a bighead carp was caught in Lake Calumet during 
a strategic sampling effort coordinated by the RCC under the Framework. 
The spread of Asian carp into the Great Lakes poses a very serious 
ecological and economic threat to that ecosystem. The RCC is committed 
to strategically utilizing all available resources and knowledge to 
prevent Asian carp from becoming established in the Great Lakes.
    In light of this recent finding, my testimony today will provide 
information on the RCC collaboration and the Framework. I will also 
highlight the RCC response to the capture of an invasive Asian carp in 
Lake Calumet as well as important progress made by the USGS, the FWS, 
and other RCC agencies on Asian carp research and control projects 
under the Framework since the February 2010 Senate Energy Subcommittee 
on Water and Power hearing on Asian carp.

                   FRAMEWORK BACKGROUND AND STRATEGY

    At this point I would like to speak to the Federal Asian Carp 
Control Strategy Framework. One of the major strengths of the Framework 
is the collaboration behind it. This collaboration builds upon the 
broader partnership of the Great Lakes Restoration Initiative (GLRI). 
The GLRI Action Plan incorporates the recommendations of hundreds of 
Great Lakes stakeholders. It targets the most significant environmental 
problems in the Great Lakes, including invasive species. It is because 
of this coordinated multi-agency effort and the funding to support it 
that the RCC was able to act immediately when the Asian carp threat to 
the Great Lakes became increasingly evident.
    Federal, State, and local agencies, working together as the RCC, 
developed the Framework to outline the actions that are being 
implemented to prevent Asian carp from becoming established in the 
Great Lakes. The agencies are united in this singular goal and the 
Framework establishes this as the official policy of the participating 
agencies. The Framework is a multi-tiered, multi-dimensional strategy 
that provides a strong defense against invasive Asian carp and includes 
both short and long-term strategies to stop the movement of Asian carp 
into the Great Lakes. No single line of defense (structural, chemical, 
biological, etc.) is adequate to keep Asian carps from becoming 
established in the Great Lakes; therefore the Framework strategy 
supports a comprehensive array of projects to more effectively address 
this critical issue. Funded in FY 2010 through the GLRI and through 
Agency base programs, the Framework is a dynamic document, reflecting 
an ever-increasing body of knowledge gathered from ongoing research and 
monitoring. The flexibility of the Framework enables us to be adaptive 
so that we can build on what we learn and adjust the strategy 
accordingly. For example, comments and suggestions from Federal and 
State partners, other organizations and groups, and the public were 
incorporated into a revised Framework released in May 2010. The revised 
Framework updates milestones on previous projects and adds several new 
research projects to address identified science and information gaps.
    Current participants in the Framework include the City of Chicago, 
Great Lakes Fishery Commission, Illinois Department of Natural 
Resources, Metropolitan Water Reclamation District of Greater Chicago, 
the University of Notre Dame, U.S. Army Corps of Engineers, U.S. Coast 
Guard, U.S. Environmental Protection Agency, FWS, USGS, and the White 
House Council on Environmental Quality. To better coordinate the 
activities of the RCC and the Framework projects and to be as effective 
as possible, the RCC formed three workgroups that were tasked to 
address specific Asian carp control issues--Monitoring and Rapid 
Response, Invasion Prevention, and Communication and Outreach. As a 
member of the RCC, I would like to personally state that the partners 
involved in this collaboration realize the seriousness of the Asian 
carp threat and are committed to preventing them from becoming 
established in the Great Lakes through the implementation of the 
Framework and other appropriate actions.

                             CURRENT ISSUES

    The recent capture of a single bighead carp in Lake Calumet has 
understandably caused great concern in the Great Lakes region. The RCC 
and other stakeholders recognize the urgency of this situation and, 
based on the Framework, are taking steps to address it. It is prudent 
that we continue on a carefully planned path that, based on 
foundational knowledge of all of the agencies and stakeholders, will 
guide and direct our actions and ultimately help us to achieve our goal 
of preventing Asian carp from becoming established in the Great Lakes. 
It is important to note that the finding of a single Asian carp in Lake 
Calumet does not indicate an imminent threat of establishment of a 
sustainable population either in the Chicago Area Waterway System 
(CAWS) or Lake Michigan.
    The bighead carp found in the northwest corner of Lake Calumet was 
34.6 inches long and weighed 19.6 pounds. It was caught by a commercial 
fisherman contracted to conduct more intensive Asian carp sampling 
efforts in the area. It represents the first Asian carp physically 
collected above the aquatic invasive species electric barrier dispersal 
system, although DNA from both bighead and silver carps has been 
collected above the barriers. The RCC agencies are enacting immediate 
measures to capture and remove any possible additional Asian carp 
through ongoing sampling efforts. Commercial fishing nets and 
electrofishing gear will continue to be used in Lake Calumet and 
additional resources will be deployed to begin sampling up the Calumet 
River leading to Lake Michigan. Electrofishing and sampling efforts in 
Lake Calumet and the Calumet River will continue throughout the next 
several weeks. The sampling effort is an identified component within 
the Framework, and is recognized as an important tool for monitoring 
for Asian carp within the CAWS and surrounding waters.
    In addition, the RCC is considering other possible vectors for 
Asian carp introduction into the Great Lakes, including the movement of 
fish through inhabited waters such as the Wabash River in Indiana to 
waters connecting directly to the Great Lakes, such as the Maumee River 
watershed in Ohio, particularly during high-water or flood events. Over 
the past six years, localized flooding has been high enough to connect 
the watersheds on four occaisions. The CAWS is only one potential Asian 
carp entry point to the Great Lakes. Hydraulic connections between the 
Great Lakes and Mississippi River Basins could also provide access 
points for carp eggs, larvae, juvenile fish and adults. The Great Lakes 
and Mississippi River Interbasin Study, a feasibility study being 
undertaken by the U.S. Army Corps of Engineers in collaboration with 
other Federal, State, and local agencies, as well as nongovernmental 
entities is examining this issue.

                     PROGRESS ON FRAMEWORK EFFORTS

    As requested, I will now provide key highlights on the progress of 
Framework actions since the February 2010 Senate subcommittee hearing. 
I will include some broader RCC and FWS updates, as well as a more 
detailed description of the USGS Asian carp control research efforts.
    As part of the multi-agency effort, a second rotenone application 
took place the week of May 17, 2010 (the first was in December 2009). 
It was very well-coordinated with numerous agencies and stakeholders 
contributing to the effort. The FWS contributed significant resources 
toward this activity. A media event was also organized in conjunction 
with the rotenone application activity and was well attended by media 
and other stakeholders.
    Extensive fish sampling of five sites in the CAWS began in June 
2010 which resulted in the capture of the bighead carp in Lake Calumet. 
Sampling will continue for 3 more weeks and scientists will determine 
if using rotenone may be used as a viable sampling tool for Asian carp 
in this area. Electrofishing and commercial fishing will be expanded 
between Lake Calumet and Lake Michigan. Environmental DNA (eDNA) 
processing and sampling is continuing.
    The FWS, as part of the Monitoring and Rapid Response Work Group of 
the RCC, helped produce a draft ``Plan for Monitoring and Rapid 
Response Plan for Asian Carp in the Upper Illinois River and Chicago 
Area Waterway System'' (Plan), which incorporates many of the short and 
long-term sampling actions identified in the Framework. The Plan uses 
an adaptive management approach, building upon the growing body of 
knowledge on Asian carp detection, monitoring, behavior, and ecology.
    From February through June 2010, FWS staff from Wisconsin, 
Illinois, and Missouri led and assisted partner agencies with netting 
and electrofishing efforts in the CAWS. This included sampling warm 
water discharges and other effluent locations, areas which may attract 
Asian carp based on nutrient and thermal availability; sampling routine 
fixed sites and reach wide monitoring as prescribed by the Plan; 
intensive sampling in localized areas in response to positive eDNA 
results; and intensive localized sampling in response to the finding of 
the bighead carp in Lake Calumet.

              USGS ASIAN CARP CONTROL SCIENCE AND SUPPORT

    The USGS has a number of Asian carp control research projects in 
the Framework with funding of over $3 million. Our strategy for this 
research is to employ the same integrated, comprehensive, and 
systematic approach that the USGS uses for all of its invasive species 
research. We are working on development of species specific chemical 
controls and investigating the best methodologies to deliver those 
chemicals into invasive species such as Asian carp. As a result of our 
extensive experience in Asian carp biology, we are able to look at 
whether the Asian carp could maintain a population in the Great Lakes 
based on their feeding habits, their preferred spawning habitats, and 
other aspects of their life history. Our expertise in water resources 
research enables us to examine the potential for inter-basin transfer 
of Asian carp into the Great Lakes through, for example, overland flow 
during flood events. In addition, we provided support for the RCC 
rotenone applications by conducting dye studies that helped determine 
water flow and where the rotenone should be applied. We are also 
conducting experiments on Asian carp eradication and herding strategies 
using seismic technology. I will now describe specific progress on some 
of these projects.

                         USGS SCIENCE PROGRESS

    Feasibility Assessment of Inter-Basin transfer of AIS (Long-term 
Action 2.2.7)--The USGS Illinois Water Science Center completed 
geophysical surveys during the weeks of June 14 and 21 along the 
Chicago Sanitary and Ship Canal and the Des Plaines River. These 
resistivity and ground-penetrating radar surveys, along with other 
information being collected, will be used to site monitoring wells to 
assess the movement of Asian carp eggs and small fry through the 
fractured carbonate bedrock. This pathway may be a transport vector not 
protected by the electric fish barrier.
    In addition, the USGS Illinois and Ohio Water Science Centers 
provided support for the December 2009 and May 2010 rotenone treatments 
using a dye tracer to define the boundaries of the treatment, surface-
water flow monitoring using acoustic doppler current profilers to 
define the flow conditions for adequate dispersion of the fish toxin 
and associated neutralization upon completion of the treatment, as well 
as some groundwater monitoring by nearby wetlands.
    Understanding Asian Carp and Bluegreen Algae Dynamics (Long-term 
Action 2.2.17)--Bluegreen algae are common in freshwaters, including 
Great Lakes. Bluegreen algae are rarely consumed by native species and 
noxious blooms of these algae can have negative ecosystem impacts. 
Asian carp, however, are known to consume these algae, but the extent 
to which they do so remains unknown. If they readily utilize bluegreen 
algae, however, Asian carp may be able to survive in waters such as the 
Great Lakes that have fewer plankton resources available than currently 
believed to be required for these fishes. Scientists are currently 
culturing algae and rearing larval Asian carp from the Missouri River 
in research ponds in order to determine the extent to which Asian carp 
consume bluegreen algae. Either pond-reared or wild-caught juvenile 
Asian carp will be used when those recently spawned have grown to 
sufficient sizes.
    Use of Seismic Technology to Divert or Eradicate Invasive Asian 
Carp (Long-term Action 2.2.8)--In this project, USGS is working with 
the U.S. Navy to test the efficacy of using seismic technology to 
control nonnative fishes. In these experiments, Navy personnel are 
exposing caged fish to seismic waves using hydro-guns. The exposure is 
monitored using hydrophones and the effects of the exposure are 
monitored in the test animals. Initial experimental trials were 
conducted in Colorado during the past few weeks. Results from these 
trials resulted in direct mortality in some fish exposed to seismic 
blasts. Necropsies of dead fish indicated punctured swim bladders, 
damage to other organs, and spinal and brain injuries.
    Characterization of Organism-Level Target Delivery Sites in Native 
Aquatic Animals (Long-term Action 2.2.22)--Scientists have identified 
native fishes with similar feeding strategies to those of Asian carp 
that would have the greatest risk of being affected by control methods 
that target the filtering ability of Asian carp. Knowing the identity 
of these native fishes will allow development and testing of Asian carp 
control methods to minimize non-target effects.
    Great Lakes Tributary Assessment for Asian Carp Habitat Suitability 
(Long-term Action 2.2.23)--In this project, USGS scientists are 
conducting research to better estimate the minimum river length and 
water temperature needed for successful spawning of Asian carp. This 
information will be used to determine whether any rivers in the Great 
Lakes watershed meet these requirements. Bighead carp have been spawned 
in the laboratory and their young were raised at two different water 
temperatures to document the time needed for development and the 
swimming behavior of larval fish.
    Technologies Using Oral Delivery Platforms for Species-Specific 
Control (Long-term Action 2.2.25)--Methods of orally delivering doses 
of toxins to Asian carp are being developed. Scientists are currently 
working on methods to orally deliver specific doses of rotenone or 
antimycin (registered toxins) to different sizes of Asian carps. This 
information is needed to properly dose the oral delivery system with 
encapsulated toxins. Another application of this technology that would 
exploit the immune response of Asian carp is being explored to increase 
species-specificity. Early juvenile Asian carp have been collected and 
are being reared in the laboratory for this research.

                               CONCLUSION

    In conclusion, keeping Asian carp from becoming established in the 
Great Lakes is the primary goal of the RCC through the implementation 
of the Framework. RCC partner agencies will continue to work together 
and in concert with the broader GLRI collaboration, to do everything 
within our authorities to meet this goal and wisely use the funds 
entrusted to us. The USGS will continue to provide the science support 
required for this vital effort in collaboration with other agencies and 
stakeholders in the Great Lakes.
    Thank you, Chairwoman Stabenow, for the opportunity to submit this 
testimony on progress being made on implementing the Federal Asian Carp 
Control Strategy. I will be pleased to answer questions from you or 
other Members of the Subcommittee.

    Senator Stabenow. Thank you very much. Obviously, we are 
deeply concerned and interested in all of the efforts that you 
are involved in right now, as it relates to the science behind 
this, and the different methods for us to be able to focus on--
for all of us to focus on, as it relates to identifying and 
stopping the carp. So, thank you very much for your leadership.
    Chairwoman Sutley, let me start with you and ask a few 
questions. First, let me talk about the locks for a moment, 
because this is an ongoing concern for us, knowing that, 
obviously, there are many things that you are doing. The good-
news/bad-news of finding the carp in Lake Calumet is that, on 
the one hand, it was because of the intensive monitoring and 
the efforts that are going on to very closely monitor and be 
able to identify if there is a fish there. The bad news is that 
there was a fish there, and that it was above the locks, and 
that it was only a few miles from Lake Michigan. So, we very 
much appreciate the intensity of what is happening, in terms of 
the monitoring and the work that's going on, and the electric 
barriers, and the poisoning, and the netting, and all of the 
other things.
    But, the big question--and this is something that--looking 
at this from Michigan, that's hard for us to understand--is why 
the administration would make a decision not to close the locks 
after finding the carp in Lake Calumet, which is between the 
O'Brien Lock and Lake Michigan. In theory, this fish could have 
passed from downstream through the lock; we don't know. I don't 
know if you have information about that. But, could you 
describe the process and the reasons for not closing the locks, 
at least temporarily?
    Ms. Sutley. Thank you, Madam Chair. The--when the bighead 
carp was captured, the Coordinating Committee, as part of its 
routine sampling, captured this carp, and, after that, they 
went back and thoroughly fished Lake Calumet. There was more 
than 3,000 hours of netting and electrofishing that went on. 
They didn't find any additional carp. So, the framework, you 
know, relies on these kinds of management actions, including 
use of closing the locks, when--to accommodate management 
action. So, there's been no decision not to close the locks, 
but to close them as part of overall management actions. So, I 
think the answer is that the management actions, the fishing 
and the netting, was very intensive on Lake Calumet. As 
mentioned, the folks fishing were starting to recognize some of 
the fish they were seeing. So, they were very intensely in 
there.
    But, we continue to execute all parts of the plan, and to 
maintain all of these as options, including closing the locks 
to accommodate management actions, the application of rotenone, 
this fish toxicant, when it makes sense, the netting, and the 
continued fishing, as well as the construction of the barriers 
and the other parts of the plan. John Rogner, who's on the next 
panel, I think, can go into a little more detail about the 
actual decisionmaking process.
    Senator Stabenow. Was rotenone, the fish poison, used in 
Lake Calumet after the carp was identified?
    Ms. Sutley. It was not used in this case because, again, I 
think the Committee felt that the actions that they were 
taking, of the intensive fishing, were sufficient. It was used 
on a section of the ship canal earlier in the year.
    As I said in my testimony, it yielded a lot dead fish, and 
fortunately, no Asian carp. Rotenone's an important part of the 
toolbox. But, it is a fish poison and needs to be used in the 
right circumstances. I think the Committee felt that that--that 
the actions that they were undertaking would be sufficient to 
ensure--to know whether there were any more carp in Lake 
Calumet. So far, they haven't found any. But, I--but, as I 
said, rotenone is an important part of the toolbox, got to be 
used in the right way, and is available, when appropriate.
    Senator Stabenow. Do you have, at this point, a--or, has 
the--have those looked--looking at this come to a theory on how 
the fish was able to get into Lake Calumet, or how long it had 
been there, or any information? I know that there was an 
analysis of the fish, once it had been removed. Any further 
information about the fish, or theories as to how it got there?
    Ms. Sutley. I might defer to Dr. Carl or to Mr. Rogner on 
those theories. But, I know they've been looking at it. The 
question of--I think the--that there's a general belief that's 
hard for us--fish that large to bypass the barriers. So, there 
may have been--there may be other ways, such as introduction, 
either accidentally or on purpose, that it might have gotten in 
there. But, I would defer to Dr. Carl----
    Senator Stabenow. Dr. Carl.
    Ms. Sutley [continuing]. For any additional information.
    Mr. Carl. My understanding was that the fish was aged by 
the Illinois Natural History Survey, and it was 6 years old. 
So, roughly 2004. So, as to its origin, there are techniques 
for looking at the early life history, looking at the aging 
structure. I believe that that will be investigated to see 
that, because we can oftentimes detect--I know, with the Lake 
Erie fish, there were 2 of the bighead carp that were found in 
Lake Erie, and they were able to look at that, and indicated 
that these fish were reared in a hatchery system, or they had 
the appearance of doing that. So, we may be able to detect 
that. At this point, that information's not--that--there, and 
it's very difficult to speculate.
    That timeframe, 2004, 2003, is right when the ban on carp--
movement of carp, in Illinois and other States, occurred. So, 
that fish may have been a hatchery fish, or it may not have 
been. We can't tell at this time. If it had been, it is 
possible that it was a culture release, or some other release, 
accidental, for some other reason. But, we don't have enough 
information to say, firmly, what happened at this time.
    Senator Stabenow. OK. Thank you.
    Let me talk for a moment about the Regional Coordinating 
Committee. I understand that, in additional to Illinois, the 
State of Indiana has just been added to the Regional 
Coordinating Committee to oversee the management activities of 
the Asian carp. It makes sense to do that, certainly. But, I 
wasn't aware, until recently, that Michigan was not a part of 
that committee. So, Michigan has requested, through a July 12 
letter, to become a member, as you know. I'd like to know if 
this is under consideration, because it certainly seems, given 
the impact on Michigan, that Michigan should be a part of that 
Committee.
    Ms. Sutley. Thank you. The Coordinating Committee, as you 
noted, is made up of Federal agencies and the States of 
Illinois and Indiana, Department of Natural Resources. It is a 
sort of an operational--day-to-day operational committee. So, 
as there are--as there's a need to expand operations, certainly 
would consider adding other States. I believe Ohio is now a 
part of the Committee, as well. We'll certainly consider and--
consider how to--whether adding other States to this 
operational committee makes sense, or are there other ways that 
we can make sure that we're having--that we're coordinating 
closely with the other States. So, we are committed to looking 
at that, and to looking at Michigan's request. We certainly 
understand how important this issue is around the Great Lakes, 
and want to assure both the Members of Congress and the 
Governors and administrations in those States that we're 
committed to working closely with them, and in partnership with 
them. Exactly how and when and who sits on what committee, 
that's something we are looking at, and certainly would 
consider that request.
    Senator Stabenow. Obviously, we have a huge stake in 
Michigan. While various States have interests in one of the 
lakes, we obviously are impacted by all of the lakes. So, I 
would strongly urge you to make sure that Michigan is 
incorporated into that.
    Along that line, I know that the administration met with 
the Great Lakes Governors last month, and I'm wondering if 
there were any new developments, in terms of the 
administration's Asian Carp Control Strategy Framework.
    Ms. Sutley. We did have an opportunity, by phone, to talk 
to a number of the Governors, and have had a number of 
discussions with the staffs from the Governors' office--offices 
around the Great Lakes and their resource management agencies. 
The plan was updated in May, with the addition of some 
timelines, as well. The Army Corps of Engineers has finished a 
couple of the studies that they were working on, looking at the 
operation of the locks, looking at whether there's some 
additional physical things they can do. So, those reports are 
now completed.
    So, as I said in my testimony, we're--the committee is 
meeting all the milestones that were outlined in the framework 
strategy and, I think, committed to sort of dynamically 
responding as circumstances change, as we've seen with the 
discovery of carp in the Wabash/Maumee system, and the response 
to that. So, we will treat--continue to treat this as a living 
document, and continue to reach out and make sure we're working 
in partnership with the States and all of the agencies 
involved.
    Senator Stabenow. Thank you.
    I know you're not from the Army Corps, but I know you're 
also aware--and we've all been talking--the Great Lakes 
Commission has recommended the permanent hydrological 
separation from the Mississippi River into Illinois River into 
Lake Michigan. That's something, as you know, that we have come 
together on, those of us from Michigan, Illinois, and around 
the Great Lakes region, to really focus the Army Corps of 
Engineers in a shorter timeframe and a more focused way to be 
able to give us answers on what it would take to do that. We 
know that that would not be simple, that there certainly are 
engineering issues. But, right now we're in a situation where 
we are having to continue intensive monitoring, which you're 
doing, and these other things, when, at some point, we have to 
have a permanent solution to this as best as we can. So, we 
look forward to working with you as we move--the Army Corps of 
Engineers--as quickly as possible to give us the answers on 
what that means--how to do that, what that would cost--and we 
can develop a long-term plan for doing that.
    Thank you.
    Dr. Carl, I'd like to talk with you a bit about the 
electric barriers, because for a long time we have focused on 
adding the electric fences--funding the electric fences as the 
answer, in terms of Asian carp moving into the Great Lakes. I 
know you're not an engineer, again, with the Army Corps, but 
could you explain to me, as a scientist, is it possible for 
fish to pass through the electric barriers when they are 
operational?
    Dr. Carl. Right now, the barrier that--the permanent 
barrier--I think it's 2A--is operating at 2 volts per inch, at 
a frequency of 15 hertz, at a pulse rate of 6.5 milliseconds. 
It's very unlikely that fish would be able to pass through 
that, especially since there are 2 barriers going at the same 
time.
    What happens is, with a direct current electrofisher, as 
this is, is electrotaxis, which is forced swimming, followed by 
electronarcosis, which is essentially--the fish freezes up and 
dies. So, it's very unlikely that those fish would be able to 
move through a system like that, particularly upstream through 
a system as that. So, I would have to say that the Army Corps 
did examine this, and they did testing at different voltages 
and frequencies, and found that this was an optimal one for the 
fish that they're trying to discourage. Again, I would stress 
that it's very unlikely that they could move up the system, 
through that, when it's in operation.
    Senator Stabenow. So, at this point, in looking at Lake 
Calumet, what does that mean, in--you're--are you indicating 
that the fish would not have swam through the barriers--the 
electric fences?
    Mr. Carl. I can't predict--I mean, the fish is at least 6 
years old--how that fish got there. I think it's unlikely that 
it swam through the fish barrier to get there. But, beyond 
that, it's--I can't really speculate on.
    Senator Stabenow. How critical do you think it is that we 
complete construction on the third barrier and the flood 
controls along the Des Plaines River to prevent the fish from 
moving closer to the lakes?
    Mr. Carl. I think it's very critical. I think the 
administration's policy of a tiered defense against the Asian 
carp threat is a good one, and part of that would be having 
more than one electrofishing array in that. That--it will now 
have 3, when that barrier is complete, in a few months' time. 
So, that if there are any problems, if one of the barriers 
needs to be put down for maintenance or something along those 
lines, or a freak accident, you still have the backup system in 
place. I think that's critical.
    In regards to the--I believe, the Wabash connection--the 
Wabash and the Maumee connection--I think that also is very, 
very important. I think it's serious, and we should avoid 
having the fish get into Lake Michigan. I think the fish 
getting into Lake Erie is even worse to have happen. They--the 
carp habitat in Lake Erie--as much as we know, and we can't 
really predict that, it would be exceptional habitat for them, 
if there is any in the Great Lakes. The western basin of Lake 
Erie is shallow, productive water with a--large blooms of 
plankton. This is something that the carp would be very well 
adapted to.
    There's also spawning habitat. If they can't spawn in the 
Maumee--and there are 3 main stem dams on the Maumee, so it's 
likely they cannot--they certainly would have an opportunity to 
spawn in the St. Claire/Detroit River system. So, I think 
there's a good chance for that. So, I think that it is 
important to have those systems separated.
    My understanding, that the Indiana DNR today put out a 
press release that indicates that they expect to have a mesh--a 
temporary barrier in place before the end of the summer. So, I 
think that's really good news, to see that happening.
    My understanding, as well, is that the Corps has plans that 
they are looking at that they could have a permanent barrier in 
place within a year. So, I think that is a really a very rapid 
response by the RCC to move forward on that, using our 
partners, the Illinois or the Indiana DNRs, working with us, in 
conjunction with the local agencies in those areas, to move 
forward with it. So, I think both of those actions really speak 
strongly for a pretty good defense against the Asian carp 
invasion.
    Senator Stabenow. That's good to hear, that they're moving 
quickly. It sounds like they need to, if you're saying that 
that's even a more favorable place for Asian carp to spawn and 
to be able to move forward.
    Do you think--are they looking at things, such as dams, as 
permanent ways to--again, to stop the waters? Or, what kinds of 
things are they looking at, at this point?
    Mr. Carl. I think that's being developed as we speak. So, I 
can talk to that, but it may change. There are--they are 
looking at using a berm along part of the ditch on the Wabash 
side, and then using fencing to block the fish, in the short 
term. They are looking at several berms and, potentially, also 
some movement of water, some pumping systems, to keep the water 
from the Wabash from going into the Maumee system. So, I don't 
have definitive answer at this time, because that's still under 
discussion.
    But, the Army Corps was there with the--our agency and 
several other agencies, the EPA and the Indiana DNR, looking at 
the system, and actually sat down with some of the stakeholders 
in the area, and there is actually a report out, right now, of 
that meeting, that talks about some of the solutions. There's 
very good buy-in, locally, as well as with the State and the 
Federal agency. It looks like it's moving forward very rapidly 
for a very good solution.
    Senator Stabenow. From what you're saying, it sounds like 
it's less complicated than what we're dealing with in Chicago, 
with the canals and the locks and so on. Is that a fair 
statement, in terms of being able to get broader buy-in? I know 
that what one of the challenges and the responses that we get 
to permanently closing the locks in Chicago relate to flooding 
and relate to commercial use of the waterways, and so on, 
that--where there's been concern, locally. Are you suggesting 
that there isn't that--the same kinds of concerns or problems 
that relate to putting up a permanent barrier?
    Mr. Carl. I think, given one meeting, that we had good buy-
in. So, I don't know that we have enough to state something as 
firm as that. But, it does appear that we have good buy-in at 
that level. That could change, I suspect, as a lot of things 
are changing.
    It would appear to be a fairly simple hydrological 
connection between these 2 systems, as opposed to the one in 
the Chicago area. As you know, I'm not from the Corps, so I 
don't have a lot of knowledge about all the implications of 
trying to do that, both the economic and social, as well as 
just the hydraulic information that we'd need for that.
    Senator Stabenow. Was the Federal Government--and this is 
to either of you--or its partners actively looking for new 
Asian carp populations in the Wabash River when this happened? 
Second, where else should we be looking? I mean, at this point, 
one of my concerns is, as we go forward--and, Dr. Carl, you're 
talking about other possible entryways into the Great Lakes--I 
mean, how far should we be looking? What else should we be 
doing?
    Mr. Carl. To one part of your question, the Great Lakes/
Mississippi River Interbasin Study--they're splitting off a 
portion of that to look immediately at the 12 areas where we 
think there may be a connection in the Great Lakes, between the 
Mississippi River and the Great Lakes Watershed. My 
understanding is that the Corps expects to have a report on 
that back by September 15 of this year. I just found that 
information out.
    So, I think that the--that we're taking this very 
seriously. The partners will be moving forward, on that 
portion, to identify where there are any connections that we 
need to be looking at, just as seriously as we're looking at 
the Wabash and the Maumee, as well as the Chicago area.
    Senator Stabenow. Thank you.
    Ms. Sutley. I would just add----
    Senator Stabenow. Yes.
    Ms. Sutley [continuing]. That--I think Mr. Rogner can speak 
to, sort of, the exact chain of events--but, I think I would 
just make the point that, I think this--both the Coordinating 
Committee and the visibility of this issue has, I think, led to 
States being vigilant in their surveillance, and that, you 
know, we'd certainly encourage that to continue for all of the 
States around the Great Lakes, and all the Federal agencies 
that are involved, to keep their eyes and ears open. In a 
sense, the States have more boots on the ground and people who 
know the systems well. So, I think it's encouraging that 
Indiana--the State of Indiana contacted the Coordinating 
Committee as soon as they became aware of this issue. I would 
just encourage that that kind of partnership is a good thing, 
and continue.
    Senator Stabenow. I would agree. I mean, I think the effort 
that's going on--and I think the only thing that I would 
continue to strongly urge you to do is to continue to look at 
the closure of the locks until we can figure this out, in 
Chicago. That's the only difference I would have. I appreciate 
the fact they have been closed at various points, and various 
testing and poisoning going on.
    But, I do very much appreciate the intensity of all the 
work that is being done. It's clear that the monitoring is, in 
fact, doing what we needed, even though we don't like the 
results of having found a fish in Lake Calumet, or what's 
happening in the area around the Wabash River, and so on. But, 
at least we have information on which we can act.
    Then, knowing that things are happening quickly is also 
very, very important. Obviously, the fish are not going to wait 
for us. So, you know, this is something where we have to act as 
quickly as humanly possible to be able to address this.
    Finally, I would just like to ask Dr. Carl--you talked 
about the new tools, testing various controls, and so on. You 
mentioned the sound gun that--the effort which sounds very 
interesting to me, and I'm wondering if you have--you could 
talk a little bit more about updates from your research. Last 
time you were here, you talked about the research that you were 
being done--doing, in terms of various new controls. You just 
mentioned it now. But, anything that looks particularly 
promising that we might be able to do right away, that--you 
know, that we should be looking to implement--implement as soon 
as possible?
    Mr. Carl. Thank you. There are several things that we're 
developing, like the micromatrix, which would allow us a 
selective toxin. But that--we predict that our field trials are 
18 to 24 months out to do that. So, that's got a long way to 
go, including approval by the EPA. So, there's a lot to do with 
that. Pheromone work, as well. Some of the things that we're 
looking at are disruption of spawning habitat, when the eggs 
are laid down, using sonic waves. We actually deferred that one 
til next year.
    But, the one that I think has some promise is the whole 
idea of using sonic disruption of carp. I mentioned that we'd 
used caged trout to look at this. We found serious injuries, 
which was unfortunate. But, looking at the seriousness of the 
problem, they were a good test animal, and I think we can move 
forward with that.
    When we use these water guns on maximum power, what we 
found was that, at 130 feet away from the gun, in the water, we 
were measuring 210 decibels of energy. For example, when you 
shoot a gun off next to your--near your head, you would be 
subject to about 140 decibels of sound wave. So, the energy 
involved at 130 feet is much larger than the energy at, say, 2 
feet away from your head. So, we feel that that has real 
interest.
    You showed the carp jumping. Typically, they're jumping 
because they're annoyed by a sound--the motor. So, this is a 
very annoying sound, 210 decibels, and our plan is to try to 
get that in place as quickly as possible. I've been in contact 
with John Rogner, from the Illinois DNR, and we're talking 
about field trails, even this September, to see whether or not 
this will work on the Illinois River.
    We could be using this to discourage fish from entering a 
lock chamber, whether it's at the Chicago system, or it might 
be somewhere on the Mississippi River. So, there may be real 
applications for this, in terms of control technology.
    As I said, we're really interested in moving this forward. 
The private company we're working with, Bolt Technology, is 
ready to build us new hydroguns, if we want to. They're not 
particularly complicated. So, it is something that, if we are 
reasonably sure that it works, that we could deploy, I would 
think, very rapidly.
    Senator Stabenow. So, you're saying you can begin to test 
them possibly in September? Is that what I heard you say?
    Mr. Carl. That's what we expect to do, is to be somewhere 
on the Illinois, probably a back-river area, looking at it with 
side-scan sonar to observe the carp behavior and to see what 
will happen, both with them. We'd like to see them in dense 
formations, and then look at that after we've shot the gun off, 
and see if there are any fish in the area, or not. So, we're 
not necessarily trying to be lethal toward the fish, but we 
certainly want them to move from that area. So, that--I think 
there's some real possibility there. The fish are much more 
sensitive to sound in water than we are, and 210 decibel is a 
lot of energy at that distance from a cannon.
    Senator Stabenow. Thank you very much.
    Finally, just to either of you, What else should we be 
doing to help you? What do you need from us to be able to do 
what needs to be done to keep the Asian carp out of the Great 
Lakes?
    Ms. Sutley. Thank you, Senator. First of all, I appreciate 
all your support and continuing interest and efforts on this. 
We certainly encourage you to keep that up. But, I think the 
most important thing we want to be sure is that the Army Corps' 
emergency authority continues past the end of this fiscal year. 
So----
    Senator Stabenow. The 126?
    Ms. Sutley. The 126 authority. So, in terms of things that 
we need from Congress immediately, to--just to ensure that that 
remains in place so they can continue to do that work.
    We appreciate Congress's support for the Great Lakes 
Restoration Initiative funding. That's been very important to 
getting all these actions in place, and look forward to that 
continued support.
    Thank you.
    Senator Stabenow. Thank you.
    Mr. Carl, is there anything that you're needing from us, or 
asking for, at this point, that would help move what you're 
doing forward?
    Mr. Carl. I just would like to thank you for the 
opportunity to testify before you. I appreciate your interest. 
Any continued interest in our work would be very valuable to 
us.
    Thank you.
    Senator Stabenow. Thank you very much.
    Excuse you and ask our next panel of witnesses to come 
forward.
    [Pause.]
    Senator Stabenow. Good afternoon. Welcome.
    Dr.--or, Mr. Rogner and Mr. Eder, thank you very much, for 
your time, for being here with us today.
    Start with you, Mr. John Rogner, the assistant director of 
the Illinois Department of Natural Resources. Welcome.

    STATEMENT OF JOHN ROGNER, ASSISTANT DIRECTOR, ILLINOIS 
        DEPARTMENT OF NATURAL RESOURCES, SPRINGFIELD, IL

    Mr. Rogner. Good afternoon, Senator Stabenow. Thank you and 
other members of the subcommittee for this opportunity to 
update you on the role of the Illinois Department of Natural 
Resources is playing in this battle to keep Asian carp from 
establishing in the Great Lakes.
    I'd first like to assure the subcommittee that the Illinois 
DNR has maintained its vigilance, and remains fully engaged in 
this effort. In fact, with the financial support of the Great 
Lakes Restoration Initiative, we've dramatically expanded our 
efforts.
    In my testimony today, I'd like to quickly review the 
action steps we've taken above the electric barrier, outline 
some of our plans below the barrier, and then discuss what 
lessons that we have learned. If there's a bottom line to my 
testimony, it's to impress upon you that we, as the Illinois 
DNR, are deadly serious in doing our part to undertake the 
actions that we've agreed to do under the Asian Carp Control 
Framework Strategy.
    So, I'll start with the actions above the electric barrier. 
This will begin where our rapid response action, last fall, in 
defense of the barrier, left off. Beginning in early February 
and continuing through April, we conducted an extensive 
monitoring operation of warm-water discharges from powerplants 
and water treatment facilities.
    With low water temperatures, we determined that these would 
be the areas that would have the greatest potential for 
harboring Asian carp. In areas downstream of the electric 
barrier with documented Asian carp populations, this strategy 
proved to be very successful. So, while we collected many fish 
above the barrier, in the vicinity of these discharges, the 
effort produced no Asian carp above the barrier.
    In March, we began developing a comprehensive monitoring 
and rapid response plan for the Chicago area Waterway System 
and the upper Illinois River. This plan was designed to 
systematically determine the distribution and abundance of 
Asian carp in those waterways, remove any Asian carp in the 
system, define the location of the leading edge and 
reproduction of those populations, and also identify e-DNA 
triggers for specific response actions in portions of the 
Chicago Area Waterway System.
    On April 9, we were notified that e-DNA for silver carp was 
again detected in the Little Calumet River, where 2009 
monitoring had previously detected multiple positive samples. 
So, we began developing plans for a sampling operation, 
including the application of rotenone to a 2-and-a-half mile 
stretch of the river in south Chicago, and then commercial 
netting in an adjacent 2-and-a-half-mile stretch.
    On April 30, we were notified that e-DNA for silver carp 
was detected in the North Shore Channel, downstream from 
Wilmette. It was decided that, given this waterway's shallow 
depth and narrow channel, that instead of rotenone, we would 
use conventional elecrofishing, combined with commercial 
fishing gear, as the appropriate response. Crews were deployed 
May 11th through the 13th, and fished intensively and, they 
believed, very effectively. We recovered many fish, but no 
Asian carp.
    On May 20, the Little Calumet River was closed to all water 
traffic, and we initiated what we called Operation Pelican. 
This was the rotenone application. This effort was designed to 
better assess the monitoring data that we had available to us, 
and was the second time we applied the toxicant rotenone to 
the--in the Chicago area waterways. The operation involved 
participation from all of our Federal partners, including 
USEPA, U.S. Coast Guard, Corps of Engineers, U.S. Geological 
Survey, Fish and Wildlife Service, as well as many State and 
local partners. The direct cost of this operation was 
approximately 1.7 million, with over 300 individuals 
participating. We recovered 134,000 pounds of fish from 40 
species, but no bighead or silver carp.
    On June 4, we were notified that e-DNA for silver carp was 
detected in the Chicago River, near a tributary called Bubbly 
Creek. That's just a short distance south of downtown Chicago. 
We immediately developed rapid response plans to increase 
monitoring and sampling operations in this zone. Electrofishing 
crews and commercial netters were deployed over 2 days, on June 
15 and 16. Again, we recovered no Asian carp.
    Then, on June 22, commercial fishing crews, working as part 
of our comprehensive monitoring plan, recovered one bighead 
carp in the northwest corner of Lake Calumet. In response, we 
immediately increased our electrofishing and commercial netting 
efforts in both Lake Calumet and the Calumet River. To aid in 
our efforts, we incorporated small mesh seins and the used of 
side-scan sonar, which provides valuable information on fish 
distribution in the river channels.
    In an effort to use the full range of sampling gear 
available to us, on July 1st our sampling crews worked Lake 
Calumet near where we recovered the bighead, and we used a 
half-mile-long sein. Using this very effective technique, they 
recovered over 40,000 pounds of fish in one single sein haul, 
but, again, no additional Asian carp.
    In the Calumet River, we've spent several days focused on 
the slips and back channels, have recovered several thousand 
fish, including ones that our biologists have visually 
identified several times--so, these are repeat catches--
indicating that we're sampling very effectively.
    We've recovered no additional Asian carp.
    You may have heard about the bighead carp caught last week 
in a Chicago Park District lagoon. While his fish had no access 
to the Chicago Area Water--Waterway System or the Great Lakes, 
it underscores the need for continued outreach to prevent the 
unintentional introduction of these fish into new waters. IDNR 
began a surveillance program directed at bait shops, last 
winter. Continue with this program into the future.
    I'll say a quick word about action steps below the electric 
barrier, where we know we have big Asian carp populations. It's 
one of the tactics outlined in the Asian Carp Control Strategy 
Framework. An initiative that we believe will significantly 
reduce these populations was announced yesterday in Chicago by 
Governor Pat Quinn. Currently, Asian carp is on the menu at 
some of Chicago's finest restaurants, and this agreement to 
purchase up to 30 million pounds of Illinois River Asian carp 
annually, for consumption in China, will greatly reduce, over 
time, the large numbers of carp downriver that create pressure 
on the electric barrier. It will also create 61 direct and 120 
indirect jobs.
    Illinois DNR has partnered with the Department of Commerce 
and Economic Opportunity, who agreed to make the strategic 
investments necessary to upgrade Illinois fish processing 
facilities to improve their capacity.
    Working with resources available to us from the Great Lakes 
Restoration Initiative, we've developed an incentive program 
for commercial fisherman. This is a critical piece of our 
strategy, because these areas currently will not support a 
commercial fishery, yet are an important component in reducing 
propagule pressures on the electric barrier system. These crews 
started operations a couple of weeks ago, and, on their first 
day, they removed 2600 pounds of Asian carp.
    So, in terms of lessons learned, we're still analyzing all 
of the monitoring and sampling data we've collected over the 
past year. But, one trend in the data has clearly emerged. If 
an Asian carp population exists above the electrical barrier, 
it is very small. Every time we sample, it reinforces that 
conclusion.
    Since February 2010, we've deployed 3200 hours of labor, 
monitoring, and sampling the waters above the electric barrier 
for carp. We intend to remain vigilant in these sampling 
efforts.
    Second lesson we have learned is that the multi-agency 
coalition that's come together in response to this crisis is 
working extremely well. We believe that this is a model that 
should be continued, as it has developed an unprecedented level 
of cooperation, communication, transparency, and flexibility to 
respond quickly to changing circumstances. We believe this 
collaborative approach is a hallmark of the way we've 
traditionally done business with the other Great Lakes States. 
We believe it's working here, as well.
    The Illinois DNR looks forward to working with the other 
Great Lakes States and Federal agencies in preventing Asian 
carp from establishing sustainable populations in the Great 
Lakes, and in the larger problem of the exchange of invasive 
species moving between the Great Lakes and Mississippi Basins.
    Thank you very much for this opportunity, and I'll be happy 
to answer any questions you might have.
    [The prepared statement of Mr. Rogner follows:]

    Prepared Statement of John Rogner, Assistant Director, Illinois 
            Department of Natural Resources, Springfield, IL

    Thank you Chairwoman Stabenow and members of the subcommittee, for 
this opportunity to update you on the role the Illinois Department of 
Natural Resources is playing in battling the Asian carp invasion.
    First let me assure the Subcommittee that the IDNR has maintained 
its vigilance and remains fully engaged in this effort. In fact with 
the financial support of the Great Lakes Restoration Initiative, we 
have dramatically expanded our efforts.
    In my testimony today I will quickly review the action steps we 
have taken above the electric barrier, outline some of our plans below 
the barrier and discuss what lessons we have learned.
Action Steps Above the Electric Barrier

  <bullet> Beginning in early February and continuing through April we 
        conducted an extensive monitoring operation of warm water 
        discharges from power plants and water treatment facilities. 
        With low water temperatures, biologists determined that these 
        were areas with the greatest potential for finding Asian carp. 
        In areas downstream of the electric barrier with documented 
        Asian carp populations, this strategy proved to be very 
        successful. While we collected many fish, this effort produced 
        no Asian carp above the barrier.
  <bullet> In March we began developing a comprehensive monitoring and 
        rapid response plan for the Chicago Area Waterways system and 
        Upper Illinois River (MRRP). This plan was designed to 
        systematically determine the distribution and abundance of 
        Asian carp in the waterways, remove any Asian carp in the CAWS, 
        define the location of the leading edge and reproduction of 
        those populations, and identify eDNA triggers for specific 
        response actions in portions of the Chicago Area Waterway 
        System.
  <bullet> On April 9th we were notified that e-DNA for silver carp was 
        again detected in the Little Calumet River where 2009 
        monitoring had previously detected multiple positive samples. 
        Plans were developed for a sampling operation including the 
        application of rotenone, to a 2.5 mile stretch of the river in 
        south Chicago and commercial netting in an adjacent 2.5-mile 
        stretch.
  <bullet> On April 30th we were notified that e-DNA for silver carp 
        was detected in the north shore channel downstream from 
        Wilmette. (see chart) It was decided that given its shallow 
        depth and narrow channel, conventional electro-fishing, 
        combined with commercial fishing gear would be appropriate. 
        Crews were deployed May 11-13th. We recovered many fish but no 
        Asian carp.
  <bullet> On May 20th the Little Calumet River was closed to all 
        traffic and we initiated Operation Pelican. This effort was 
        designed to better assess the monitoring data we had available 
        to us and was the second time we applied the toxicant rotenone 
        in the Chicago Area. The operation involved participation from 
        all of our federal partners including the USEPA, USCG, USACE, 
        USGS, USFWS as well as state and local partners. The direct 
        cost was approximately $1.7 million, with over 300 individuals 
        participating. We recovered 134,000 pounds of fish from 40 
        species, but no bighead or silver carp.
  <bullet> On June 4th we were notified that e-DNA for silver carp was 
        detected in the Chicago River near Bubbly Creek a short 
        distance south of downtown Chicago. We immediately developed 
        rapid response plans to increase monitoring and sampling 
        operations in this zone. Electro-fishing crews and commercial 
        netters were deployed over two days on June 15-16. We recovered 
        no Asian carp.

    On June 22nd, commercial fishing crews working as part of our 
comprehensive monitoring plan, recovered one big head carp in the 
northwest corner of Lake Calumet.
    In response, we immediately increased our electrofishing and 
commercial netting efforts in both Lake Calumet, and the Calumet River. 
To aid in our efforts we incorporated small mesh seines and the use of 
side scan sonar, which provides valuable information on fish 
distribution in the river channels.

  <bullet> In an effort to use the full range of sampling gear 
        available to us, on July 1st, our sampling crews worked Lake 
        Calumet near where we recovered the bighead first used a half-
        mile-long seine. Using this very effective technique they 
        recovered over 40,000 pounds of fish in one haul but no Asian 
        carp. (See Picture)
  <bullet> In the Calumet River we have spent several days focused on 
        the slips and back channels and have recovered several thousand 
        fish, including ones that our biologists have visually 
        identified several times. We have recovered no additional Asian 
        carp.
  <bullet> You may have heard about the bighead carp caught last week 
        in a Chicago Park District Lagoon. While this fish had no 
        access to the Chicago Area Waterway System or the Great Lakes, 
        it underscores the need for continued outreach to prevent the 
        unintentional introduction of these fish into new waters. IDNR 
        began a surveillance program directed at bait shops last winter 
        and will continue with this program into the future.
Action Steps Below the Electric Barrier
  <bullet> Reducing Asian carp populations downstream of the electric 
        barrier is one of the tactics outlined in the Asian Carp 
        Control Strategy Framework. An initiative that we believe will 
        significantly reduce these populations was announced yesterday 
        in Chicago by Governor Pat Quinn. Currently Asian carp is on 
        the menu at some of Chicago's finest restaurants and this 
        agreement to purchase up to 30 million pounds of Illinois River 
        Asian carp annually for consumption in China will greatly 
        reduce over time the large numbers of carp downriver that 
        create pressure on the electric barrier. It will also create 61 
        direct and 120 indirect jobs.

    IDNR has partnered with the Department of Commerce and Economic 
        Opportunity who agreed to make the strategic investments 
        necessary to upgrade Illinois fish processing facilities to 
        improve their capacity.

    Working with resources available to us from the Great Lakes 
        Restoration Initiative we have developed an incentive program 
        for commercial fisherman. This is a critical piece of our 
        strategy because these areas currently will not support a 
        commercial fishery, yet are an important component in reducing 
        propagule pressure on the electric barrier system. These crews 
        have begun operations and on their first day they removed 2600 
        pounds of Asian Carp. (See picture)*
---------------------------------------------------------------------------
    * Graphic has been retained in subcommittee files.
---------------------------------------------------------------------------
Lessons Learned
    We are still analyzing the totality of the monitoring and sampling 
data we have collected over the past year, but one trend in the data 
has clearly emerged. If an Asian carp population exists above the 
electric barrier system it is very small.
    Since February 2010 we have deployed 3200 hours of labor monitoring 
and sampling the waters above the electric barrier for Asian carp. We 
intend to remain vigilant in our monitoring and sampling efforts in the 
Chicago Area Waterways.
    A second lesson we have learned is that the multi-agency coalition 
that has come together in response to this crisis is working extremely 
well. We believe that this is a model that should be continued as it 
has developed an unprecedented level of cooperation, communication, 
transparency, and flexibility to respond quickly to changing 
circumstances.
    As we now know this is a problem that is not going to be solved by 
one state, or one agency. As a region the Great Lakes states have a 
long and established history of using a proactive and collaborative 
approach. We believe our Great Lakes Region is stronger when we work 
together in partnership to solve common problems, and Asian carp is not 
an exception to this.
    The Illinois DNR looks forward to working with the other Great 
Lakes States and Federal Agencies in preventing Asian carp from 
establishing sustainable populations in the Great Lakes and in the 
larger problem of the exchange of invasive species moving between the 
Great Lakes and Mississippi basins. Thank you and I will answer any 
questions you have.

    Senator Stabenow. Thank you very much.
    Mr. Tim Eder. Welcome.

    STATEMENT OF TIM EDER, EXECUTIVE DIRECTOR, GREAT LAKES 
                   COMMISSION, ANN ARBOR, MI

    Mr. Eder. Thank you, Chairwoman Stabenow. Thank you for 
this opportunity to testify today.
    My name is Tim Eder, and I'm the executive director of the 
Great Lakes Commission, which represents the eight Great Lakes 
States, Ontario, and Quebec.
    Let me begin by emphasizing that the Great Lakes States and 
our Canadian partners have grave concerns about the dire threat 
that Asian carp pose to the ecological and environmental 
integrity of our region's most valuable natural resource. 
Stated directly, Asian carp have the potential to devastate the 
Great Lakes ecosystem, as well as the jobs and economic 
vitality of the communities that depend on our lakes. For more 
than a decade, we have known that Asian carp were approaching, 
and we've been trying to prevent their introduction.
    Let me be clear about how appreciative we are of the 
efforts of the State of Illinois, the other States that have 
been involved, and the other Federal agencies that you've heard 
about, testifying here earlier today.
    Unfortunately, events over the past year show that our 
efforts have been inadequate to date. The key message I bring 
is that our region must act together in a more coordinated and 
decisive manner if we're to keep Asian carp out. Unless more 
effective short-term, and especially long-term, solutions are 
accelerated, we fear it is only a matter of time before the 
Asian carp invade.
    First, I want to convey some recommendations on immediate 
actions to strengthen the Asian Carp Control Strategy Framework 
and associated efforts to implement it.
    No. 1, Federal agencies must improve how they're organizing 
and coordinating their response effort. This should include the 
appointment of a single point of contact or incident response 
coordinator. At the same time, the Federal response must 
respect State authorities. This is not simply an acknowledgment 
of State sovereignty, but also recognition that the States are 
indispensible allies. I should point out that, as you've just 
heard from the State of Illinois' extraordinary efforts, this 
is not a concern, as much as an acknowledgment that it's 
something that needs to be continued to be paid attention to.
    No. 2, communication and coordination must be improved. It 
has not always been clear how the Regional Coordinating 
Committee and its workgroups are structured, how membership is 
determined, and what the scope of work is, and how 
communications are executed. One option would be to include 
participation from each of the States. We appreciate you 
bringing up the point about Michigan's participation, earlier 
today, Senator.
    No. 3, assess the risks throughout the watershed divide to 
identify places like the Wabash/Maumee that pose the greatest 
risk of allowing the movement of Asian carp. We're pleased that 
the legislation recently introduced by you and Senator Durbin 
would expedite this work.
    No. 4, while it's important to evaluate all areas where 
Asian carp could enter the Great Lakes, the Regional 
Coordinating Committee should continue to focus on the Chicago 
area.
    No. 5, the States were very troubled to learn that there's 
been a gap in e-DNA testing. The Federal Government should 
immediately reinstate the use of this important tool.
    No. 6, we need to ensure that Federal agencies budget for 
ongoing monitoring and control. This is not a special or a one-
time expense, but, rather, an ongoing part of management 
responsibilities.
    Now I want to turn to long-term solutions. While improved 
near-term actions are vital, Federal agencies must commit to a 
permanent, long-term solution. If we've learned anything from 
the past year, it should be that current efforts are 
unsustainable and, we fear, will ultimately fail.
    There's a clear consensus among the Great Lakes States that 
the best long-term solution is to permanently sever the 
artificial hydrologic connection in Chicago. Earlier this year, 
the Great Lakes Commission agreed unanimously--all eight 
States--that, quote, ``The best permanent solution for the 
health of both the Mississippi River and the Great Lakes 
watershed is ecological separation, with the goal being 
preventing the movement of invasive species between the 
watersheds.
    As a practical matter, ecological separation means physical 
separation at one or more places in the Chicago area. 
Unfortunately, there's been little progress by the Federal 
Government toward this goal. The Corps of Engineers currently 
projects that the first phase of their study will not be 
completed until late 2012, with the full study projected to be 
completed in 2014. This timetable is acceptably long.
    Another problem is that the Corps intends to consider 
ecological separation as one of but several options. For that 
reason, we strongly support the legislation that you and 
Senator Durbin now recently introduced that will direct the 
Corps to specifically study hydrologic separation while 
carefully assessing options to accommodate current uses of 
Chicago area waterways.
    It is also critical that Congress provide the funding 
necessary for the Corps to complete this work. The 
administration has requested only 400,000 for this study in 
FY11, which, unfortunately, is too little.
    In conclusion, I want to echo you, Senator Stabenow, 
earlier this year. You noted--I believe it was in Ypsilanti--
that there are certainly problems associated with controlling 
carp that we can solve. For example, separating the Great Lakes 
from the Mississippi River is a big challenge, to be sure, but 
a problem that we cannot solve is the Great Lakes that have 
been infested with Asian carp. We haven't lost the battle 
against Asian carp, but without accelerated action, we could be 
close. We must not be the generation that allowed Asian carp 
into the Great Lakes on our watch.
    I thank you for your steadfast efforts in this regard, 
Senator. I'd be happy to answer any questions that you might 
have.
    [The prepared statement of Mr. Eder follows:]

    Prepared Statement of Tim Eder, Executive Director, Great Lakes 
                       Commission, Ann Arbor, MI

                              INTRODUCTION

    Madame Chair and members of the Water and Power Subcommittee, thank 
you for the opportunity to testify on the urgent situation surrounding 
the discovery of Asian carp in Lake Calumet--just six miles from Lake 
Michigan. My name is Tim Eder and I am executive director of the Great 
Lakes Commission. The Great Lakes Commission is a public agency 
established by the Great Lakes Basin Compact in 1955 to help its eight 
member Great Lakes states and associate member provinces of Ontario and 
Quebec speak with a unified voice and collectively fulfill their vision 
for a healthy, vibrant Great Lakes-St. Lawrence River region.
       asian carp threaten the valuable assets of the great lakes
    The Great Lakes states and provinces have grave concerns about the 
dire threat Asian carp pose to the ecological and environmental 
integrity of the region we call home. In brief, our Great Lakes region 
faces a crisis, and we must act with urgency commensurate with the 
implications of this crisis. Stated directly, Asian carp have the 
potential to devastate the Great Lakes ecosystem and the jobs and 
economic vitality of the communities that depend on the Great Lakes.
    Containing 20 percent of the world's fresh surface water, the Great 
Lakes are an extraordinary natural resource for our country and our 
neighbor to the north. The lakes provide valuable ecological and 
economic benefits to the more than 33 million Americans and Canadians 
who live in the basin, including transportation for raw materials and 
finished goods; fresh water for industries; drinking water for 
communities; recreation for citizens; and a vibrant ecosystem for 
diverse communities of plants and animals. Despite the current economic 
climate, the Great Lakes regional economy remains the third largest in 
the world behind only that of the United States and Japan. The invasion 
of Asian carp has the potential to cause irreversible damage to these 
valuable commercial, recreational and ecological assets. Due to their 
rapid reproduction, growth patterns and ability to outcompete native 
fish, the Asian carp population established in the Mississippi River 
basin has experienced unparalleled population growth. In a three-year 
span, the commercial harvest of bighead carp in the Mississippi River 
Basin went from 5.5 to 55 tons--a ten-fold increase.\1\ In some areas 
of the Mississippi and Illinois River, the Asian carp now make up more 
than 95% of the biomass.\2\ Of particular concern is the looming threat 
Asian carp pose to the Great Lakes recreational boating industry and 
commercial, sport and tribal fisheries that generate a combined 
economic benefit of more than $16 billion in the region.\3\
---------------------------------------------------------------------------
    \1\ Chick, J.H. and M.A. Pegg (2001) Invasive carp in the 
Mississippi River basin. Science 292 (5525):2250-2251.
    \2\ MICRA (2002) Asian carp threat to the Great Lakes, River 
Crossings: The Newsletter of the Mississippi Interstate Cooperative 
Resource Association 11 (3):1-2.
    \3\ U.S. Army Corps of Engineers (2008), In response to Public Law 
106-53, Water Resources Development Act of 1999, Section 455(c), John 
Glenn Great Lakes Basin Program, Great Lakes Recreational Boating, 
Submitted to Congress Dec. 15, 2008; Barnhart, G. (2005) The Threat 
Posed to the Great Lakes Basin by Asian Carp, accessible at: http://
www.glfc.org/fishmgmt/testimony_AsianCarp.pdf.
---------------------------------------------------------------------------
    In addition to the recent discovery of Asian carp in Lake Calumet, 
they continue to approach the Great Lakes basin through other 
waterways. For example, Asian carp continue to migrate up the Wabash 
River, a tributary of the Ohio River, where they are actively spawning 
within 100 miles of the headwaters of the Wabash. The Wabash is 
separated from the Maumee River, which drains to Lake Erie, by a 
floodplain. There is legitimate and justified concern that flooding in 
this area could create a temporary connection between the Wabash and 
Maumee rivers and provide a pathway for Asian carp to enter Lake Erie 
at the very heart of the Great Lakes. It is worth noting that flooding 
in the Mississippi River in the early 1990s provided one of the 
pathways for Asian carp to escape from commercial fish ponds into the 
river and begin their migration northward toward the Great Lakes.
    We have long known the potential for Asian carp and other non-
native aquatic species to enter the Great Lakes from points around and 
beyond the Chicago area. The recent capture of a live carp in Lake 
Calumet should give new urgency to direct our actions to the points 
where the Great Lakes are artificially connected to other watersheds, 
beginning with the Chicago area.
    It is imperative that our region act together in a coordinated and 
decisive manner if we are to protect the Great Lakes from invasion by 
Asian carp. Our region has a long history of working with the federal 
government on Asian carp control. Our experience with the construction 
of the electric dispersal barrier system on the Chicago Sanitary and 
Ship Canal near Chicago goes back to the early part of the last decade. 
Unfortunately, these experiences do not fill us with confidence in the 
ability of the federal government to move quickly and decisively to 
confront current challenges.
    However, we recognize that this is a new day. We hope that recent 
events will ignite and accelerate the coordinated and urgent response 
that the situation demands. Now, more than ever, we need leadership 
from the federal government, a response that is coordinated closely 
with state agencies, and an aggressive plan of attack that matches the 
urgency of this crisis.
 the federal response must accelerate both short and long-term actions
    The recent discovery of Asian carp only six miles from Lake 
Michigan has severe implications for our region's economic and 
ecological health. Unless both short-term and long-term solutions are 
implemented quickly, it may only be a matter of time before Asian carp 
invade the Great Lakes. If a self-sustaining population becomes 
established, the carp will be difficult--and most likely impossible--to 
control or eradicate.
    Our region has been calling for concerted action to prevent the 
introduction of Asian carp into the Great Lakes for nearly two decades. 
Most recently, in February of 2010 the Great Lakes Commission 
unanimously adopted a resolution that recognizes ecological separation 
of the Great Lakes and Mississippi River watersheds as the best, 
permanent solution to preventing the movement of invasive species 
between the watersheds. It calls for a unified, immediate, and 
substantial commitment of resources to investigate and identify 
alternatives for existing uses of the Chicago Sanitary and Ship Canal 
(CSSC). It is worth emphasizing that this resolution was adopted with 
support from all eight of the Great Lakes states, Ontario and Quebec.
    The discovery of live Asian carp in and near tributaries of the 
Great Lakes heightens the urgency of finding and implementing long-term 
solutions that will permanently prevent further exchange of invasive 
species between the Great Lakes basin and the Mississippi watershed. 
The long timeframe of the Corps of Engineers' study of ecologically 
separating the Great Lakes basin from the Mississippi watershed is 
unacceptable and does not inspire confidence that the federal 
government is reacting with the urgency that is required.
    Moreover, recent discoveries heighten the urgency to accelerate 
critical short-term actions needed to ensure that Asian carp do not 
enter and establish reproducing populations in the Great Lakes. Federal 
agencies must coordinate closely with state agencies and must take all 
necessary actions described in the Asian Carp Control Strategy 
Framework to monitor, detect and eradicate Asian carp in the Chicago 
Area Waterway System (CAWS) and other points where the Great Lakes are 
artificially connected or where they could be temporarily connected 
with other watersheds.
    Asian carp are both the most imminent and likely the most damaging 
threat to the Great Lakes. We must act immediately if we are to prevent 
this threat from becoming a reality.

    THE NEED FOR CONCERTED ACTION: THE ASIAN CARP CONTROL STRATEGY 
                               FRAMEWORK

    In February 2010, the U.S. EPA-led Asian Carp Regional Coordinating 
Committee released the draft Asian Carp Control Strategy Framework 
providing a blueprint for action by federal and state agencies and 
other partners. The framework was updated in May. It provides an 
important summary of short-term strategies for combating the invasion 
of Asian carp; clarifies the roles and responsibilities of the federal, 
state, municipal and other agencies involved; and identifies funding 
sources to pay for immediate action.
    Several of the Great Lakes Commission's member states provided 
comments on the Framework when it was published as a draft in February. 
In general, the states recognized the Framework as an articulation of 
various short-term and other measures that federal and state agencies 
will take to monitor and control the spread of Asian carp.
    States have recognized positive actions called for in the 
Framework, but they also have identified significant concerns about the 
Framework. These points do not reflect a consensus of all eight states. 
But, to summarize the comments from the some of the states, below are 
some of the positive aspects of the Framework:

  <bullet> Completion of dispersal barrier IIb on the CSSC by October 
        2010;
  <bullet> Construction of interim barriers between the Des Plaines 
        River and the CSSC to prevent the transfer of Asian carp during 
        flood events;
  <bullet> Research on Asian carp spawning, habitat, and feeding habits 
        and associated risks of becoming established in the Great 
        Lakes; and
  <bullet> Increased outreach to and participation by other 
        stakeholders and agencies.

    Similarly, and again, not reflecting the views of all states, some 
of the concerns identified by the states include:

  <bullet> Failure to call for closure of locks and other structures on 
        the CAWS, or to change their operations or modify their 
        structures, while a permanent solution is developed and 
        implemented;
  <bullet> Lack of adequate short-term control measures in the CAWS;
  <bullet> Lengthy timeframes for implementing control strategies, 
        conducting studies, and advancing ecological separation of the 
        Great Lakes and Mississippi River watersheds;
  <bullet> Failure to study alternate modes for transferring cargo 
        besides that provided by the CAWS;
  <bullet> Inadequate measures to prevent the transfer of Asian carp 
        eggs and larvae via ballast water in commercial vessels; and
  <bullet> Insufficient communication with and formal participation 
        from the Great Lakes states in the Asian Carps Regional 
        Coordinating Committee.

    In May, the attorneys general of five of the eight Great Lakes 
states conveyed a detailed critique of progress under the Framework. In 
correspondence to the commander of the Corps of Engineers' Great Lakes 
and Ohio River Division, the attorneys general noted that:

          In sum, apart from the already planned improvements . . . 
        relatively little concrete action has been taken under the 
        Framework since February to prevent the migration of Asian carp 
        into Lake Michigan. Even the limited ``modified structural 
        operations'' proposed by the Corps as an alternative to lock 
        and sluice gate closure, have yet to be implemented as 
        initially described in the Framework. And, significantly, the 
        critical first step toward a permanent solution--a feasibility 
        study evaluating permanent ecological separation of the CAWS 
        from the Great Lakes--remains, under the May Framework[ ], 
        years away from completion.

    Their next statement aptly reflects the collective sentiment of the 
Great Lakes states: ``Further delay is unacceptable.''
    The measures called for in the Framework clearly are necessary in 
the near term and must be implemented. However, the fundamental 
criticism of the Framework is that it does not provide a clear track on 
an acceptable timetable to the most permanent, sustainable and 
effective solution to keeping Asian carp out of the Great Lakes.
    Thus, reiterating the key message from the Commission's February 
2010 resolution, we must commit to ecological separation of the Great 
Lakes and Mississippi River watersheds as the only permanent and most 
effective long-term solution to keeping Asian carp from entering the 
Great Lakes through the CAWS. More than anything else, this was the 
predominant theme consistently conveyed by the states in reaction to 
the Framework.

                  RECOMMENDATIONS FOR IMMEDIATE ACTION

    The crisis we face requires a re-examination and acceleration of 
our collective efforts. As Senator Durbin remarked in a recent 
statement, ``We have to go at this as if we were at war. The viability 
of the Great Lakes is at stake.''
    Notwithstanding our comments above and the concerns our states have 
expressed, the Asian Carp Control Strategy Framework forms a foundation 
for improving and accelerating regional action in response to the 
recent discoveries. The Great Lakes states offer the following 
recommendations to strengthen this foundation and ensure the timely and 
comprehensive protection of our valuable resources:

Establish a more organized and coordinated federal response to Asian 
        carp
    A fundamental need at this moment is to improve how federal 
agencies are organizing and coordinating their response efforts to 
reflect a greater sense of urgency and accountability. There must be a 
single and clear point of contact overseeing the collective federal 
effort, empowered to ensure action and provide the requisite 
accountability. Federal agencies must be given the authority and the 
ability to marshal all of the resources necessary to expeditiously 
thwart the further advance of Asian carp toward the Great Lakes.
    At the same time, it is also critical that the federal response be 
managed in a way that respects the authorities of states to manage 
natural resources within their borders. This is not simply an 
acknowledgement of state sovereignty, but also recognition that the 
states are indispensible allies in the battle against Asian carp. 
States have intimate knowledge of the waterways within their borders 
and staff and equipment ``on the ground'' throughout the region poised 
to support monitoring, control and eradication efforts. This was aptly 
demonstrated during last year's large-scale chemical treatment of the 
CSSC, when the Great Lakes states and the Canadian provinces of Ontario 
and Quebec pulled together to contribute staff, equipment and funding 
to support the interagency operation.

Improve communication and coordination with states and other partners
    The Regional Coordinating Committee (RCC) has spearheaded 
monitoring and control efforts in the CAWS to date but it is not clear 
to the states how this committee and its workgroups are structured, how 
membership is determined, what the scope of work is and how 
communications are planned and executed. Unfortunately, this has 
resulted in confusion and a lack of effective integration of our 
collective efforts. One option would be to expand the RCC to include an 
opportunity for participation from each of the Great Lakes states. 
Until recently, the only state represented on the RCC was Illinois. We 
understand that Indiana and Ohio have recently been added. Clearly, 
Asian carp are a threat to the entire Great Lakes region and a more 
effective mechanism is needed to coordinate our intergovernmental 
partnership.

Assess risks throughout the watershed divide
    A risk assessment exercise should be undertaken immediately to 
identify the places that pose the greatest risk of facilitating the 
movement of Asian carp from the Mississippi River watershed to the 
Great Lakes basin. While this is (at least in part) the intended focus 
of the Corps of Engineers' Great Lakes and Mississippi River Interbasin 
(GLMRIS) study--currently projected for completion in 2014--recent 
evidence indicates that a quicker and more comprehensive approach is 
required. Risk assessments must be conducted on all tributaries of the 
Mississippi River and artificial connections between the Mississippi 
watershed and Great Lakes basin which Asian carp can potentially use to 
breach the divide between the two ecosystems. Once the highest risk 
locations are identified, resource agencies should follow up using eDNA 
and traditional monitoring to track movement of carp and ensure early 
detection. Rapid response plans must be put in place to thwart any 
possible migration. We are pleased that such a monitoring effort is 
called for in the legislation recently introduced by Senators Stabenow 
and Durbin. In addition, as called for in the Stabenow-Durbin bill, we 
urge close consultation with the Great Lakes states both to respect 
their jurisdictional authorities and to utilize their knowledge of the 
watersheds and associated hydrology.

Continue to focus on the CAWS as the highest priority
    While it is important to evaluate the risk of Asian carp moving to 
the Great Lakes at all points along the watershed divide, the RCC 
should continue to focus the brunt of its efforts on the CAWS. The 
finding of the bighead carp in Lake Calumet and the numerous positive 
eDNA samples indicate the presence of Asian carp in several locations 
upstream of the electric barrier. It is essential that response 
activities continue to be focused in the Chicago region.
Immediately accelerate eDNA testing
    The discovery of Asian carp in Lake Calumet and other areas such as 
the Wabash River should trigger an aggressive effort to document and 
verify the extent of Asian carp populations in these areas. The 
Commission is troubled to learn that there has been a gap in eDNA 
testing during this critical time. This is an example of how an 
aggressive, coordinated federal response has been lacking. The federal 
government should immediately reinstate the use of eDNA testing to 
better understand the populations in the CAWS and at other potential 
points of hydrologic connection.

          RECOMMENDATIONS FOR A PERMANENT, LONG-TERM SOLUTION

    There is a clear consensus among the Great Lakes states that the 
best long-term solution to prevent the exchange of invasive species--
including, but not limited to, Asian carp--between the Great Lakes 
basin and the Mississippi River watershed is to permanently sever the 
artificial connection between the two watersheds. Although the states 
have disagreed in the past on whether the threat from Asian carp is 
sufficient to close the O'Brien and Chicago locks, there is now no 
disagreement that permanent ecological separation is the best longterm 
solution.
    At the Great Lakes Commission's semiannual meeting last February in 
Washington, D.C., our Commissioners unanimously approved the attached 
resolution. Our Commissioners--representing all eight of the Great 
Lakes states, Ontario and Quebec--agreed unanimously that ``the best 
permanent solution for the health of both the Mississippi River and 
Great Lakes watersheds is ecological separation, with the goal being 
preventing the movement of invasive species between the watersheds, and 
that the pursuit of this goal must start with a unified, immediate, and 
substantial commitment of resources to investigate and identify 
alternatives for existing uses of the CSSC, including for stormwater 
and wastewater control and commercial and recreational navigation.''
    The resolution further ``calls on Congress and the Obama 
Administration to immediately provide substantial resources to expedite 
the investigation and implementation of permanent solutions to prevent 
the transfer of aquatic invasive species between the Great Lakes and 
Mississippi River basins and that the first phase of these studies, 
those related specifically to the CSSC, be completed no later than 
Sept. 30, 2011, and be followed by an aggressive timetable for 
implementation.''
    Although chemical, biological, and interim physical methods are 
essential to repelling the immediate invasion of Asian carp into the 
Great Lakes and adjacent waterways, these solutions are neither 
economically nor environmentally sustainable. The goal of permanent 
ecological separation would be to entirely prevent the interbasin 
transfer of aquatic invasive species between the Mississippi River and 
Great Lakes watersheds via the CAWS.
    Ecological separation is a relatively simple concept: it means 
taking steps to prevent the interbasin transfer of aquatic organisms 
through the waterways. It means preventing the movement of all aquatic 
organisms--at all life stages--via canals and waterways between the 
watersheds. As a practical matter, ecological separation means physical 
separation of the watersheds at one or more places in the CAWS. For our 
purposes, ecological separation is synonymous with hydrologic 
separation.
    The CAWS encompasses a complex system of rivers, canals and 
navigation structures centered in the Chicago metropolitan area but 
stretching into Indiana and west toward the Mississippi River. Begun in 
the 19th century to facilitate the movement of commercial goods between 
the Great Lakes and the Mississippi River, the waterway system has 
evolved over more than a century to support an array of important uses, 
including commercial transportation, recreational boating, wastewater 
management, flood control and emergency response. Achieving ecological 
separation likely will require modifying existing water infrastructure 
or building physical barriers to stop the flow of water while 
maintaining the system's benefits. Ideally, if done correctly, 
ecological separation will not only solve a serious threat to the 
health of the Great Lakes, but also improve the overall transportation 
and water management system of the greater Chicago area.
    Unfortunately, progress by the federal government toward this goal 
has been unacceptably slow. In the Water Resources Development Act of 
2007, Congress authorized the Corps of Engineers to conduct a 
feasibility study of ``the range of options and technologies available 
to prevent the spread of aquatic nuisance species between the Great 
Lakes and Mississippi River Basins through the Chicago Sanitary and 
Ship Canal and other aquatic pathways.'' Under this study (GLMRIS) the 
Corps intends to consider separation as but one option. To date, there 
has been virtually no visible progress toward completing the study. The 
Corps of Engineers has yet to even complete a project management plan, 
one of the first steps in beginning the study. No public meetings have 
been held or scheduled, and no notices or updates on progress under the 
study have been released. The Corps of Engineers is currently 
projecting that the first phase of the study will not be completed 
until late 2012, with the full study projected to be completed in 2014. 
This timetable is unacceptably long.

Clarify the direction, accelerate the timetable and provide funding for 
        the Corps of Engineers study of hydrologic separation
    It is essential that Congress and the Administration provide the 
Corps of Engineers with a clear directive and the funding necessary to 
accelerate the timetable for completing the GLMRIS study. The 
resolution adopted by the Great Lakes Commission calls for completion 
of the first phase of the study--the portion focused on the CAWS--by 
September 2011. Thus, we support the legislation introduced recently by 
Senators Stabenow and Durbin, which gives the Corps a necessary and 
clear directive to conduct a study that focuses on hydrologic 
separation of the Great Lakes basin and the Mississippi watersheds. The 
legislation calls for completion of the study within 18 months of 
enactment. The legislation also properly directs the Corps to carefully 
assess options to accommodate the uses currently provided by the CAWS, 
including flood prevention, wastewater, waterway safety operations, and 
barge and recreational traffic alternatives.
    In addition to providing the Corps with clear marching orders and 
an aggressive timetable, Congress must provide the appropriations 
necessary to complete the study in a timely fashion. We are concerned 
that the Administration's budget calls for only $400,000 for the GLMRIS 
study for next fiscal year. To be done correctly, a study of this 
magnitude and complexity clearly requires significantly more funding.
    In conjunction with the Great Lakes and St. Lawrence Cities 
Initiative, the Great Lakes Commission intends, pending successful 
completion of raising the needed funds, to initiate an independent 
study to research options for ecological separation. The study is 
intended to complement, support and help accelerate the work of the 
Corps, not duplicate it. The study team would operate in close 
coordination with the Corps' feasibility study, either the GLMRIS study 
and its interim report(s) or a new study that would be initiated by the 
Stabenow-Durbin legislation. An independent study team can provide a 
more concerted and detailed focus on how to achieve ecological 
separation than likely will be produced by the Corps, and in a much 
quicker timeframe. Based on experience to date, it will also afford 
states, cities, tribes, and other affected stakeholders a greater 
opportunity to provide input, define key questions and establish 
criteria for developing and evaluating the scenarios for ecological 
separation.

Ensure federal agencies budget for ongoing monitoring and control of 
        Asian carp
    Safeguarding the Great Lakes against Asian carp will be an ongoing 
need for many years to come. As discussed, achieving ecological 
separation of the Great Lakes basin and Mississippi River watersheds 
will be complex and will take years to implement. In the meantime, it 
is imperative that we maintain the highest level of vigilance in 
keeping Asian carp out of the Great Lakes. It bears repeating that, 
once established, Asian carp most likely will be impossible to control 
or eradicate and the economic and ecological impacts could be 
devastating. While they may take years to migrate among the Great 
Lakes, migrate they likely will, just as zebra mussels, round gobies, 
spiny water fleas and a host of other damaging aquatic invasive species 
have migrated across the Great Lakes. Thus, it is imperative that 
federal agencies include the costs of Asian carp monitoring and control 
in their base budgets. This is not a special or one-time expense, but, 
rather, an ongoing part of their management responsibilities for the 
Great Lakes. We must not allow the President's unprecedented commitment 
to restoring the lakes under the Great Lakes Restoration Initiative to 
become the only source of funding for these baseline management 
responsibilities.

                    SUMMARY OF KEY REQUIRED ACTIONS

    In summary, the Great Lakes Commission urges Congress and the 
Administration to implement the following actions that are urgently 
needed to prevent Asian carp from invading and permanently devastating 
the ecological and environmental health of the Great Lakes:

  <bullet> Strengthen the Asian carp response structure with improved 
        transparency and communication, increased participation from 
        the Great Lakes states, a single point of contact with 
        authority to marshal all necessary federal resources and clear 
        accountability for action;
  <bullet> Maintain close cooperation with state agencies, utilize 
        their expertise and respect their legal authorities and 
        jurisdictional rights; and
  <bullet> Maintain and accelerate the use of eDNA testing in the CAWS 
        and other areas where Asian carp may be present;
  <bullet> Initiate a regional risk assessment to identify places that 
        pose the greatest risk of facilitating the movement of Asian 
        carp from the Mississippi River watershed to the Great Lakes 
        basin;
  <bullet> Ensure that federal agencies budget for Asian carp control 
        efforts in their base programs to ensure that these ongoing 
        costs do not undermine progress being made under the Great 
        Lakes Restoration Initiative;
  <bullet> Commit to and move aggressively toward developing and 
        implementing ecological separation of the Great Lakes basin and 
        Mississippi River watershed as the best permanent long-term 
        solution to preventing the exchange of aquatic invasive species 
        between the two;
  <bullet> Accelerate the Corps of Engineers GLMRIS study to provide an 
        interim report on the CAWS within 18 months and provide the 
        Corps with all necessary funding and authority to carry out 
        this and related studies as expeditiously as possible and to 
        implement any needed emergency response actions.

                               CONCLUSION

    The Great Lakes are a national treasure and a vital economic asset 
for our region and our country. Last year President Obama began the 
Great Lakes Restoration Initiative (GLRI), an unprecedented, multi-year 
commitment to implement a comprehensive restoration plan for the Great 
Lakes that was guided by our region's governors and broadly endorsed by 
states, cities, tribes, business and industry, environmental and 
conservation groups, and other stakeholders. The GLRI is a wise 
investment that advances our broader strategy to create jobs, stimulate 
economic development and invest in freshwater resources that are a 
critical component of our regional economic infrastructure.
    However, just as we are poised to make historic gains in restoring 
the Great Lakes, we are faced with the prospect of watching them suffer 
great ecological damage. Even worse, we have seen this threat coming. 
For more than a decade, federal and state agencies have been taking 
action to prevent Asian carp from getting into the Great Lakes. The 
past year has made it painfully clear that our efforts to date have 
been inadequate.
    We haven't lost the battle against Asian carp, but without 
accelerated action, we could be close. We face a crisis and must 
respond correspondingly. It is imperative that we take the near-term 
actions needed to push back against the forward movement of Asian carp 
while committing to a long-term vision that permanently protects our 
economic and ecological health. There are challenges to surmount and 
difficult problems to address. But, just as more than a century ago the 
City of Chicago reversed the flow of the Chicago River, we can tackle 
the problems associated with separating the Great Lakes basin and 
Mississippi River watersheds. A problem that we cannot solve, however, 
is a Great Lakes infested with Asian carp. We must not be the 
generation that allowed what may be the most damaging invasive species 
into the Great Lakes on our watch.
    I thank you for your time and welcome any questions you may have.

    Senator Stabenow. Thank you very much, to both of you, for 
coming.
    First, Mr. Eder, I'll start with you. You talked about a 
gap in e-DNA testing. Could you talk a little bit more about 
that?
    Mr. Eder. Yes, there was a contract with the--with Notre 
Dame University. They were the ones that developed the e-DNA 
sampling technique--the technology. They were doing it on sort 
of an experimental basis, to prove that it would work. Of 
course, as you know, they found--they had--e-DNA hits of 
positive results were shown in a number of places in the 
Chicago area. That contract has been concluded, and they're in 
the process of transferring that authority over to the Corps of 
Engineers. In the meantime, there has not been any e-DNA 
testing. This took place--this gap has occurred at the time 
when the carp was found--the live carp was found.
    Now, there have been other efforts underway. You know, one 
way to look at it is that we know that the carp are there. 
We've had numerous e-DNA hits. We've found one live Asian carp. 
So, part of the use of the tool is to tell--to give us an early 
indicator that carp may be present. We know that carp may be 
present, now. So--but, we think it's important to reinstate 
that tool and use it, not only in the Chicago area, but in 
other places, like the Wabash/Maumee and other places that have 
been talked about, where there's a potential connection.
    Senator Stabenow. Mr. Rogner, you were talking about e-DNA 
testing. At this point, is it--is that stopped because of what 
Mr. Eder was talking about? Or, are you doing something 
separate? I mean, what--where are we with this? What do we need 
to do to--it seems to me, this is a pretty basic part of 
monitoring that we have got to keep going.
    Mr. Rogner. That's absolutely correct. There are really a 
couple of things going on. One is, under the RCC structure, we 
have a variety of work groups, one of which is the Monitoring 
and Rapid Response Workgroup. What that group is doing right 
now is, developing a comprehensive e-DNA sampling plan for the 
entire Chicago Area Waterway System. We've developed a draft of 
that. We've sent it to the workgroup for reviews. We'll be 
finalizing that. Then that will be our blueprint for how we use 
e-DNA sampling to inform our management actions, going forward. 
I expect that to be completed very soon.
    There is a--we are in a period of transition right now from 
the--formerly, the Lodge of--the lab of Dr. David Lodge, at 
Notre Dame, doing the work, to the Corps of Engineers taking 
the e-DNA sampling work over, themselves. My understanding, 
we're just a matter of a few short weeks from them being able 
to take this program over, begin doing the sampling and the 
analysis, so that we hope that sampling will resume, actually, 
very quickly.
    Senator Stabenow. As we all know, I mean, the fish aren't 
taking a break. So, every day counts on this. I'm always 
concerned when I'm hearing--I understand the need for standards 
and for committees and so on, but we need to move as quickly as 
possible on this. So, if there--again, if there is an issue 
where we need to intervene or push, or if there's some reason 
this is not happening fast enough with the Corps, we're--we 
will monitor this. We will go back and double back on what's 
happening, because--I'm not questioning intentions, but, you 
know, as we listen to all of this, and we look at what has been 
done, and the intensity of the work that you have had to keep 
doing, obviously there's a great sense of urgency about not 
wasting any time at all about this. So, I appreciate, Mr. Eder, 
your raising this so that this is something we will go back and 
monitor.
    From the Commission's standpoint, what is the view of the 
Federal Government's role and reaction--or State partners--to 
the carp that was found in Lake Calumet? In your view, was the 
response adequate? Is there more that the Federal Government or 
the State government should be doing, in the context of the 
fish that was found?
    Mr. Eder. It's pretty clear, from the testimony that you've 
heard, that the State of Illinois and the Federal partners are 
doing an awful lot to try to capture any carp that might be 
present. I--frankly, I don't know what else could be done. You 
asked the previous panel about the use of rotenone. I think 
there's probably pretty good reasons why rotenone hasn't been 
used, or they would have tried it. So, I'm not sure what else 
they could have done in that particular case.
    Senator Stabenow. OK.
    Mr. Rogner, with all the work that's being done--I mean, 
it--and there's no question--I mean, the intensity, the hours, 
the efforts that are going into place--it does raise the 
question, when listening to all this, of, How long can we keep 
this up? I mean, again, the fish aren't going to go away. You 
know, we have to keep this up until we have a permanent 
solution. But, why aren't we closing the locks and--or--and 
addressing what are legitimate concerns in Chicago? Obviously, 
you would have to open them if there was a concern about 
flooding, or have to deal with other issues. But, why isn't 
closing the locks right now a part of that strategy?
    Mr. Rogner. Of course, the State of Illinois does not 
operate the locks.
    Senator Stabenow. Right.
    Mr. Rogner. So, we don't have----
    Senator Stabenow. No, I understand.
    Mr. Rogner [continuing]. The capacity to do that kind of 
management action. The Corps has made the decision that the 
best way to operate the locks is to close them, in support of 
actual fish-suppression operations, presumably because they are 
in agreement with our conclusions, at this point, that fish are 
there in very low numbers, if they're there at all. So, I 
presume that that's the reason for their decision, although I 
cannot speak for the Corps of Engineers.
    You're certainly aware of the impacts that could occur if 
the locks were closed and--the impacts on storm water and waste 
water, and navigation, also, of course. So, the State of 
Illinois is concerned about those impacts. We are more than 
willing to engage in conversations about separation of the 2 
systems. We're going to be a full participant with the Corps of 
Engineers in their GLMRIS study. We hope that we can find some 
kind of acceptable middle ground that works for the economy of 
the State of Illinois, but also for the ecology of the Great 
Lakes.
    Senator Stabenow. I appreciate that. It is--when we look at 
the devastation to the Great Lakes if we see the Asian carp 
take hold in the Great Lakes, and what could happen--the 
economic impact, the quality-of-life impact--even though there 
are certainly very legitimate issues around Chicago, I'd much 
rather be focusing on ways to redirect commercial activity, and 
funding that, which is much cheaper than what in the world we 
would do if this--if the Asian carp got into the Great Lakes.
    So, you know, I appreciate the issues. Certainly you have 
to manage things, in terms of flooding, as well. But, when we 
look at relative cost and risk and permanent damage, it seems 
to me that, even though we're going to move the Army Corps of 
Engineers to move much more quickly--and, Mr. Eder, you're 
right--I mean, we can't be talking about something that has an 
interim report in 2012 and a final report in 2014. I mean, 
that's just absolutely unacceptable. We have to tighten up the 
focus on what the Army Corps is being asked to do--directed to 
do--to specifically look at hydrological separation, which is 
what our legislation would do, and then give a much shorter 
timetable, and obvious--funding. Obviously, we have to make 
sure it can actually be done.
    But, again, when I look at and listen to all of the efforts 
that have to be going on right now, and the intensity of that, 
we have to find a permanent solution as quickly as possible. I 
also believe that if, in fact, that's not going to happen for a 
while, that medium-term efforts on the locks have to be 
seriously looked at if we're going to--unless you think you can 
keep up the level of activity that you're talking about and--
which you're going to have to do, by the way. I mean, we have 
no choice. You're going to have to keep up that level of focus 
right now, as we expand with some of the other things that were 
being talked about, as well.
    Let me ask, from the Illinois DNR standpoint, about the 
effectiveness of the electric barriers, again. We've put--up to 
this point--up until the e-DNA was found, we have been very 
focused on the electric barriers, adding an electric fence, 
getting a third one in place. How effective do you believe 
these barriers are in keeping the carp from passing upstream, 
and how much will a third barrier add to the security system, 
in your judgment?
    Mr. Rogner. As Dr. Carl explained earlier, the Corps of 
Engineers is operating the barriers now at a set of operating 
parameters that tests have shown should be very, very 
effective. Now, prior to last fall, it was being operated at a 
lower voltage, lower frequency, different pulse rate. Of 
course, when the DNA first suggested that the fish might be 
closer to the barrier system than we had previously realized, 
they upped the operating parameters to make it more effective--
again, based on data that they had.
    So, we believe that it will be very effective--a very 
effective tool. Obviously, if you add redundancy to a barrier 
system, you incrementally increase the effectiveness of that 
system. So, additional barriers, no question, would add an 
additional safety margin and additional safeguards that would 
ultimately make it a more effective system, no question.
    Senator Stabenow. Now, I wonder if you might talk about the 
new Asian Carp Initiative that the Governor has just announced 
and that you mentioned--talk a little bit more about the 
initiative to combat the Asian carp. It sounds like it's really 
about reducing the populations, in terms of commercial fishing 
and the other efforts. Can you explain how this will really 
prevent the spread of the carp to new places? I think some 
people back home may not understand why you'd want to promote a 
fishery for the fish, when we're trying to keep them out of the 
Great Lakes. So, wonder if you might talk more about that.
    Mr. Rogner. Sure. Absolutely. First of all, there's a 
pretty established principle of invasion biology that--what you 
want to do is reduce propagule pressure against new areas where 
a species might otherwise tend to invade. So, the whole focus 
of this is to keep the numbers of carp downriver, at much, much 
lower numbers, so you won't have the number of carp trying to 
test the barrier and potentially, occasionally, some getting 
through. So, that's the whole idea behind it.
    What we're doing is kind of a two-phased approach. In the 
upper reaches of the river nearest the barrier, where Asian 
Carp are in low numbers right now, there would not be a market-
based way of making commercial fishing work, because there just 
aren't enough carp there. Yet, we know we need to reduce 
populations, beginning at the barrier and then extending 
downriver. So, what we're doing, again, using GLRI money--Great 
Lakes Restoration Initiative funds--we're actually contracting 
ourselves with commercial fishermen to go in those upstream 
areas and just start hauling fish out. Again, they began that 
operation several weeks ago, and, in 1 day, hauled out 2600 
pounds. So, we know they know how to catch them. They can 
reduce their numbers. We did redeploy those people up to Lake 
Calumet when we caught that one bighead carp, but they've since 
been moved back below the barrier to start to remove those fish 
again.
    But then, further downriver, where the Asian Carp are in 
great numbers, that's where we want to try and develop a 
profit-based commercial fishery. What we've done is, brokered a 
deal--again, using State of Illinois capital dollars--we've 
brokered a deal between a fish processor in Illinois and a 
Chinese meat processing company. These fish are considered a 
delicacy in China, where the per-capita fish consumption is 
enormous--way larger than what we're used to, here in the 
United States.
    They view these fish as a delicacy. They're marketing them 
as coming from the pristine waters of America, versus the kinds 
of waters that they're typically grown in, in China. It's a 
marketing strategy they believe will be very effective.
    So, the agreement is to haul out and sell 30 million pounds 
of Asian carp the first year, and another 30 million pounds in 
year 2. Then, we hope we can only increase it after that. 
Again, this is all focused on the Illinois River right now--not 
the Mississippi, but the Illinois--because obviously that's the 
portal, the gateway, the pathway to the Great Lakes.
    But, it--there's no reason why the--if the markets are 
there, both foreign and domestically--why the commercial 
fishery couldn't continue to grow and be a strategy in other 
parts of the United States, as well.
    We're very sensitive to the concern that this will create 
an incentive, perhaps, to move carp and establish them 
elsewhere. We'll have to be attentive to that. States and 
Federal Government will have to develop and apply and enforce 
the proper regulations to prohibit interstate transport, to 
prohibit establishment in new waters, certainly. But, at this 
point, we feel that we have no other alternative, no other 
feasible way to haul out the huge numbers of carp that we 
really need to pull out to make a difference, and make sure 
that they have a minimal chance of moving upriver and 
establishing in the Great Lakes.
    Senator Stabenow. So, basically, you are taking a portion 
of the Illinois River--downstream--you know, farther away from 
the Great Lakes, downstream of the locks and so on--and trying 
to haul out the fish so they don't swim upstream and aren't 
moving, essentially, closer, in terms of the electric barriers 
and the locks and so on. That's a very interesting strategy. I 
hope it works. I hope it helps. At this point, you said, 
though, this is Illinois River only, not Mississippi, because, 
of course, all of this started in the Mississippi River. But, 
at this point, you're talking about Illinois River.
    Mr. Rogner. Correct. Again, because that's the direct 
portal to the Great Lakes. But, where there are other threats, 
perhaps in the Wabash, as we've heard about earlier, that would 
be an approach that could be taken there, as well. We'll see 
how effective it will be, over the coming year or two.
    Senator Stabenow. Thank you.
    As we come to a close, Mr. Eder, I wonder if you would want 
to give any specific recommendations, in terms of better 
coordination or better communication. When you listed the areas 
that you would recommend that we focus on for improvement, is 
this primarily a Federal coordination in communication, or 
State, or both? Or what would you recommend, in terms of 
improving that?
    Mr. Eder. I think you touched on one of the more important 
things that needs to be addressed, and that is inclusion of all 
of the States in the--either the Regional Coordinating 
Committee, or its successor, the next iteration of whatever 
mechanism is needed. It's clear that we need to look beyond the 
immediate area of the Chicago Area Waterway System. But, as I 
also said in my testimony, that's where we need to continue to 
focus. So, including all the States would be one thing.
    As I said in my testimony, it's not always clear how 
decisions are made, when they're being made, and how 
communication is rolled out. There was some concern about how 
the information on the Wabash/Maumee was rolled out. Some of 
the States weren't happy with the timing and the way they 
received that information.
    The other thing I will just say to you, in closing, 
Senator, is simply how important it is that we move forward 
with the interbasin transfer study, and specifically the study 
of hydrologic separation. Your legislation is absolutely 
critical to move that study forward on a much more quick 
timetable. If your legislation doesn't pass--and we certainly 
hope it does, and we're hopeful that we can help do whatever is 
necessary to make sure that that happens--but, if it doesn't, 
we hope that we can work with you and your colleagues to 
accelerate the Corps' existing study, because that's really the 
permanent long-term solution that we've all agreed on, in the 
Great Lakes Commission.
    Senator Stabenow. We're going to move as quickly as we 
possibly can. I feel a great sense of urgency about this. The 
subcommittee is going to continue to be monitoring this very 
closely, and doing everything we can, not just monitoring, but 
following up on every suggestion, everything that we need to be 
focused on to be able to both make sure that the resources 
continue to be there. This is something, of course, the Great 
Lakes resources, that the President included in his budget for 
the first time--the extraordinary investment of $475 million 
for Great Lakes protection, really came at a time when it was 
critical for us to have the flexibility to be able to respond, 
and for all of you to be able to respond as you have done.
    So, we will continue to do everything we can. We appreciate 
both of your leaderships.
    As I indicated before, the only area, Mr. Rogner, that we 
have a disagreement on is on the strategy of closing the locks. 
It's hard for us, in Michigan--you know, realizing we're a step 
away from this--but, it's hard for us to understand why we 
wouldn't do that as part of the strategy. So, we're going to 
continue to push forward for that, as part of the strategy, as 
well as support all of your other efforts that are happening, 
and address the questions that came up today regarding the gap 
in e-DNA testing, and how we can make sure that there's not a 
gap in testing, which is so critical, and be able to enhance 
the communication and coordination.
    Part of that--and it was mentioned before--but, Senator 
Durbin and I and others have sent a letter to the 
administration asking that there be one person put in charge of 
coordination. I know there's been a tremendous amount of 
efforts going on with the Council, with the States, and so on. 
But, I believe we need one person that is in charge, that can 
be able to react quickly and respond, and for you to know who 
that person is and be able to coordinate things as directly as 
possible.
    So, thank you, again, for being here.
    At this point, I want to note that, if there is any 
additional written testimony for the subcommittee, we will 
receive that testimony from witnesses or from other members of 
the committee, to make it part of the official record. We'll 
keep the record open for a period of 2 weeks to receive 
additional statement. For the information of Senators and their 
staff, questions from the record are due by close of business 
day tomorrow.
    With that, the subcommittee meeting is adjourned. Thank 
you.
    [Whereupon, at 4:54 p.m., the hearing was adjourned.]

    [The following statement was received for the record.]
  Statement of Robert E. Carter, Jr., Director, Indiana Department of 
                           Natural Resources

    Indiana has been an active participant in efforts to thwart the 
movement of Asian carp. We share your concern about the threat posed to 
the ecological balance of the Great Lakes. Indiana is a member of the 
Great Lakes Commission and Council of Great Lakes Governors, which have 
called for increased resources to be allocated to expedite efforts to 
close off avenues for Asian carp to reach the Great Lakes. In February, 
Governor Daniels sent a letter to Nancy Sutley, Chair of the White 
House Council for Environmental Quality, commending the aggressive yet 
balanced approach laid out in the ``Control Strategy Framework.'' In 
that letter (attached for inclusion with this testimony), he raised 
concerns about rash calls to close locks in the Chicago Area Waterway 
System. In addition to the serious flooding problems that would result, 
lock closure also would displace significant commercial activity. The 
Ports of Indiana is in the process of completing a major study on the 
economic impacts of waterborne shipping on the Indiana Lakeshore, and 
the preliminary findings show an annual impact of:

  <bullet> 104,567 direct, induced, indirect and related jobs;
  <bullet> $14.2 billion of economic activity to the state;
  <bullet> $567 million of state and local tax revenue; and
  <bullet> 17,655 jobs and $1.9 billion in economic activity attributed 
        to Indiana barge movements through the O'Brien Lock

    This impact is huge, and yet just accounts for Indiana's 45 miles 
of coastline; it doesn't include the rest of the Great Lakes ports and 
industry.
    Much attention has been placed upon the Chicago Area Waterway 
System, and rightfully so--it presents a direct pathway for Asian carp 
to move into the Great Lakes. However, it has long been understood that 
there are other potential natural and engineered connections. One of 
those potential connections is in northeast Indiana. Eagle Marsh 
straddles a geographic divide between the Wabash River (Mississippi 
River basin) and the Maumee River (Lake Erie watershed). Although the 
Wabash and Maumee basins drain in opposite directions and have no 
direct connection under normal conditions, their waters do commingle 
under certain flood conditions. The potential connection was originally 
created by glacial movement during the ice age.
    The State of Indiana is taking a lead role in implementing a short-
term step to address the advance of Asian carp up the Wabash River 
system and their potential movement into the Maumee River. A permanent 
solution to prevent Asian carp from being able to pass through this 
area during flooding conditions will take more time to develop, design 
and construct. Therefore, as an immediate preventive measure, the 
Indiana DNR will install mesh fencing across a section of the marsh, 
creating a barrier against passage of Asian carp between the Wabash and 
Maumee drainage basins.
    The fencing will be substantial enough to withstand floodwaters but 
will be designed so it does not increase flood elevations and cause 
property damage. The goal is to have the fencing installed this summer. 
Additional monitoring will be conducted and more aggressive action 
taken if the threat warrants. I have attached additional information 
regarding Indiana's actions.
    Indiana will continue to work with other states and federal 
agencies to develop appropriate actions to stop the advance of Asian 
carp toward the Great Lakes while maintaining the viability of 
Indiana's shipping economy.
                               Attachment
                                  State of Indiana,
                                    Office of the Governor,
                                                 February 11, 2010.
Ms. Nancy Sutley,
White House Council on Environmental Quality, 722 Jackson Place, NW, 
        Washington, DC.
    Dear Nancy: Indiana remains firmly committed to preventing the 
establishment of Asian Carp in Lake Michigan. To do so, we must use 
many different control strategies and Indiana appreciates the approach 
you have laid out in the draft ``Control Strategy Framework''. It seeks 
to aggressively address a threat in a balanced and informed manner. 
Indiana will be a partner in further developing and executing the 
Framework.
    As you note in the Framework, the Chicago waterway lock system is 
not a fish barrier and even when closed, fish may ``simply swim through 
the lock''. Further, there are many other ways for the Asian Carp to 
enter Lake Michigan completely independent of the lock system. One of 
those other pathways is through flooding, a danger the locks are 
currently used to prevent or minimize.
    While some are demanding the extreme action of permanently closing 
the lock system, Indiana is committed to the multi-tiered approach laid 
out in the Framework. There is no single simple solution and we must 
utilize a variety of science and engineering-based approaches. We agree 
with you that we must embrace an aggressive but balanced approach.
    The Framework points out the risk that permanent closure will cause 
serious flooding; to us that possibility is not hypothetical. Northwest 
Indiana is home to almost 800,000 Hoosiers, who have repeatedly 
suffered through the destruction and health dangers of severe flooding. 
In the last two years alone property damage amounted to $127 million 
and at least two lives were lost.
    After decades of futile efforts to get flood controls on the Little 
Calumet River, Indiana and the Army Corps of Engineers are less than 12 
months away from completing a levee system designed to control the 
water flows as we have known them for the last 100 plus years. If the 
lock system is permanently sealed, the water volumes will rise 
significantly (Chicago removes two billion gallons a day from Lake 
Michigan) and the levee system likely will be inadequate to protect the 
people, homes and businesses in that water's path. There must be a 
credible plan to deal with all of the water not going through the locks 
before closing that system. The failure to do so would be dangerously 
irresponsible.
    Indiana will be a partner in addressing the threat of Asian Carp, 
but not at the needless expense of increased flood damage and risk to 
life and property. The Framework is balanced and thoughtful and we look 
forward to assisting in its implementation.
            Sincerely,
                                  Mitchell E. Daniels, Jr.,
                                                          Governor.

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

      Responses of Nancy Sutley to Questions From Senator Stabenow

    Question 1. On July 14, 2010, the Indiana Department of Natural 
Resources announced a plan to use a mesh barrier to prevent the 
potential movement of Asian carp up the Wabash River system into the 
Maumee River. Do you believe such a barrier is sufficient to prevent 
the movement of Asian carp through that system? Are there other 
preventative measures that should be taken to ensure that all potential 
pathways to the Great Lakes are covered?
    Answer. As explained in more detail below, with respect to the 
Wabash River-Maumee River connection, the Indiana Department of Natural 
Resources (DNR) is implementing an effective interim solution while 
partner agencies are evaluating a more permanent solution. The US Army 
Corps of Engineers (USACE) and partner agencies are also in the process 
of evaluating other connections between the basins.
    The US Geological Survey (USGS) has estimated that a 10% annual 
frequency (10-year) flood event is required to complete a surface water 
connection between the Maumee River and the Little River (Wabash River 
system) in Fort Wayne, Indiana sufficient for a fish such as an Asian 
carp to swim across the drainage divide between the Great Lakes and 
Ohio River Basins. The mesh barrier plus two feet of freeboard being 
designed and constructed by the Indiana DNR is for a 1% annual (100-
year) flood event, and will serve as an interim risk reduction measure 
that should substantially reduce the risk of adult Asian carp from 
being able to swim across the drainage divide. The interim measure is 
focused on adult Asian carp because Indiana DNR believes it is unlikely 
that either viable Asian carp eggs or juvenile fish would be present in 
the flooding area.
    USACE is working with the US Environmental Protection Agency (EPA), 
USGS and other partner agencies to evaluate, and develop a more 
permanent solution to prevent the transfer of Asian carp and other 
aquatic invasive species at this connection.
    With respect to other connections between the basins, as part of 
the Great Lakes and Mississippi River Basin Study (GLMRIS), the USACE, 
along with partner agencies, is performing a Preliminary Inter-Basin 
Connections Risk Characterization, which will culminate in a September 
2010 report that will provide an inventory of potentially significant 
surface water connections that exist or may form across the entire 
length of the Great Lakes and Mississippi River Basin drainage divide. 
This report will provide conclusions by an interagency panel of experts 
regarding the relative risk associated with invasive species transfer 
at each of the locations identified in the inventory, and it will serve 
as a basis for identifying other preventative measures or further study 
to address the risk of aquatic invasive species transfer via all 
pathways between the Great Lakes and Mississippi River basins.
    Question 2. We received testimony that eDNA testing for Asian carp 
was interrupted while responsibility for the testing was transferred 
from the University of Notre Dame to the U.S. Army Corps of Engineers. 
In light of that decision, how can we be certain that detection efforts 
will continue and how will decisions to interrupt testing be determined 
and publicized in the future?
    Answer. The eDNA sampling and processing capability is currently 
being transitioned from the University of Notre Dame to USACE's 
Engineering Research and Development Center (ERDC). Tasks associated 
with the application of this monitoring technique will be conducted by 
an interagency sampling team under the supervision of the Monitoring 
and Rapid Response Work Group (MRRWG) of the Asian Carp Regional 
Coordinating Committee (ACRCC). This team will consist of USACE, the US 
Fish and Wildlife Service (FWS), and the Illinois DNR. The samples will 
be filtered by USACE at an EPA facility in Chicago, and then shipped to 
the USACE ERDC laboratory for testing. The transition from Notre Dame 
is currently scheduled to be complete on 16 Aug 2010. During this 
transition Notre Dame maintained its capability and continued to 
process and test samples in accordance with transition requirements. 
Once the transition is complete the USACE laboratory will be fully 
operational and will double the current sampling capacity from 60 
samples per week to 120 samples per week.
    Recent sampling has been focused on critical training of ERDC 
personnel by Notre Dame which included the taking of concurrent samples 
by both entities to confirm ERDC's process. During this same period, 
heavy rains in the Chicago area caused some delay in sampling. Upon 
recommendation by the MRRWG after discovery of a live carp in June, an 
additional 300 samples were collected in Lake Calumet, the Calumet 
River, and Indiana Harbor. These samples are being processed by Notre 
Dame. Therefore during the transition period, Notre Dame was able to 
continue to provide processing of samples as requested while the 
transition was occurring.
    Question 3. How are decisions being made in terms of prioritizing 
the Asian carp detection and sampling and monitoring efforts within the 
Chicago area waterways and the other pathways such as the Maumee River?
    Answer. With respect to the CAWS, monitoring/sampling 
prioritization and decision making is made by the Monitoring and Rapid 
Response Work Group (MRRWG), which includes representation by resource 
management agencies and organizations including USACE, FWS, and 
Illinois DNR. Decisions regarding monitoring, sampling, and rapid 
response are made by the MRRWG in support of policy and management 
goals established by the RCC and its member agencies. The MRRWG also 
convenes with non-governmental stakeholders in attendance. These 
discussions inform the MRRWG's prioritization and decision making 
process for all sampling and monitoring efforts in the CAWS. Currently, 
State and Federal resource agencies involved with Asian carp prevention 
and control within the region are working collectively to establish a 
strategy to address other potential pathways; this includes watershed-
wide multi-agency efforts such as the Great Lakes Mississippi River 
Interbasin Study (GLMRIS), currently being led by the USACE. Also, 
individual States identify high priority prevention and control actions 
in their State Aquatic Nuisance Species Management Plans, which are 
updated annually and approved by the Aquatic Nuisance Species Task 
Force (as described under Nonindigenous Aquatic Nuisance Species 
Prevention and Control Act).
    Question 4. Please describe your method of determining where and 
when to test for eDNA. What is your proposed method for making the eDNA 
testing results available to the public?
    Answer. Originally, the eDNA sampling program was intended to 
identify the leading edge of Asian carp migration, which, based on 
other monitoring was presumed to be south of the Brandon Road pool. 
Once eDNA evidence of Asian carp was found above the fish barrier, the 
sampling plan has covered the entire Chicago Area Waterway System 
(CAWS). The specific locations and schedule were determined by the 
University of Notre Dame and The Nature Conservancy (TNC), in 
consultation with USACE and other ACRCC partners, based on fish expert 
assessments of the locations where Asian carp would most likely be 
found if present in the CAWS. Future eDNA sampling will be based on 
recommendations of the ACRCC's Monitoring and Rapid Response Work Group 
(MRRWG). These recommendations will be documented in a sampling plan, 
which is still under development.
    In the past, USACE has posted eDNA results on its website, as well 
as on www.asiancarp.org, using a tracking map provided by Notre Dame. 
With the transition to ERDC, USACE intends to make results available on 
the Chicago District's website within one week of analysis.
    Question 5. When do you expect the United States Army Corps of 
Engineers to complete the final efficacy report that will summarize the 
interim reports and recommend a multi-agency, comprehensive strategy as 
described in the recently completed dispersal barrier efficacy study?
    Answer. USACE intends to release a draft of the Final Efficacy 
Study for public review in December of 2010 and finalize the report in 
the spring of 2011.
    Question 6. Please describe the factors under consideration in 
connection with your decision whether to designate a federal commander 
for Asian carp strategies.
    Answer. The Council on Environmental Quality plans to select an 
individual who can lead coordination efforts to keep Asian carp from 
becoming established in the Great Lakes ecosystem. The Asian Carp 
Control Strategy Framework is an aggressive plan for success. The 
coordinator will help ensure we are continuing to communicate with and 
draw on the expertise of key stakeholders in the region.
    Question 7. Please provide us with an update with regard to the 
timeline for completion of the Great Lakes and Mississippi River 
Interbasin Study (GLMRIS). What is your response to the assertion that 
an independent study should be completed to research options for 
ecological separation? There is significant concern that waiting until 
2012 for the results will be too late. Can anything be done to speed 
things up?
    Answer. GLMRIS was initiated in July 2009 on receipt of the initial 
appropriations for the study. In January 2010, the first interagency 
scoping meeting for GLMRIS was held, which informed development of the 
Project Management Plan (PMP). The Executive Steering Committee group, 
which includes the members of the Asian Carp Regional Coordinating 
Committee, has been briefed on the draft PMP and will remain engaged 
throughout the study.
    The Corps has fully coordinated the scope for GLMRIS over the past 
year and has organized the study to proceed on two basic tracks 
simultaneously. One track will focus on the CAWS and the unique 
challenges posed in the evaluation of permanent measures to prevent the 
transfer of all manners of aquatic invasive species from one basin to 
the other through that waterway system. The CAWS is the most direct and 
highest risk pathway for aquatic species transfer between basins, and 
thus requires priority of effort. The second track has begun with a 
reconnaissance-level effort to identify and characterize the risk of 
all other potential aquatic passageways between the Great Lakes and the 
Mississippi River basins. This risk characterization is expected to be 
complete in September 2010.
    Executing the GLMRIS is the first step in addressing permanent 
solutions to deter and prevent sustainable populations of aquatic 
invasive species from transferring from one basin to the other. This 
study will consider actions that are needed to prevent inter-basin 
migration of aquatic invasive species in both directions. This study is 
complex and far-reaching and any projects recommended for execution as 
part of the study would be subject to authorization, prioritization, 
and funding. A study of this scope and breadth requires a significant 
quantity and very high quality of environmental, economic, and social 
data and many variables and factors which are currently unknown. Given 
its scope, complexity and variables that will influence 
recommendations, it will likely take a significant amount of time to 
gather and analyze and understand information. It is likely to take 
longer than the 18 months proposed in the House T&I Committee Bill for 
a FY 2010 WRDA to gather, analyze, understand and apply data of this 
quality and quantity. The study will be approached in increments and 
interim reports with recommended actions will be released prior to full 
study completion, in the same manner as the Efficacy Study has been 
conducted. This procedure would potentially allow USACE to accelerate 
portions of the study in order to address urgent issues whenever 
adequately mature information is developed.
    However, while USACE is conducting GLMRIS, it is using three 
mechanisms to assist the ACRCC in preventing the establishment of a 
sustainable population of Asian carp in the Great Lakes:

          (a) Design, construction, operation, maintenance and 
        improvement of the electric fish barrier system;
          (b) Monitoring for the presence of Asian carp in the CAWS in 
        collaboration with partner agencies, via the application of 
        eDNA technology and more conventional monitoring methods; and
          (c) Executing near-term control measures to address the 
        threat of Asian carp migration via the CWS, using interim 
        reports of the Efficacy Study, a study authorized in the Water 
        and Resources Development Act (WRDA) of 2007, and using the 
        emergency authority provided in Section 126 of the 2010 Energy 
        and Water Development Appropriations Act.

    Specifically, USACE is building a barrier system along the Des 
Plaines River and Illinois and Michigan Canal, which both flank the 
Chicago Sanitary and Ship Canal (CSSC). This bypass barrier will 
prevent fish from bypassing the electric fish barrier during flooding 
of these two waterways, which could create temporary hydrologic 
connections to the CSSC. USACE is also installing screens on the sluice 
gates at the T.J. O'Brien Lock and Dam to impede fish passage.
    The Final Efficacy Study will summarize the interim studies and 
recommend a long-term, multi-agency comprehensive strategy to improve 
the efficacy of the electric fish barrier and additional measures 
throughout the CAWS to minimize the risk of Asian carp migrating into 
Lake Michigan. Given that Section 126 expires on October 28, 2010, the 
Assistant Secretary of the Army for Civil Works has sought a two-year 
extension of that authority, in addition to expanding it to allow USACE 
to take appropriate actions in other geographic locations, outside the 
CAWS, along the basin divide.
    Question 8. Given the release of the Executive Order for the 
Stewardship of Our Oceans, Coasts, and Great Lakes, how do you plan to 
prioritize issues addressed given the broad scope of the Executive 
Order? What effect, if any, will the Executive Order have with respect 
to the ongoing Asian carp control strategies?
    Answer.
Issue Prioritization
    Within the next few months, the National Ocean Council will hold 
its first meeting to begin the work of implementing the National Ocean 
Policy outlined in the Executive Order. After an initial period to 
organize itself and its component advisory bodies, the National Ocean 
Council's interagency policy committees will develop strategic action 
plans for each of the nine priority objectives within six to twelve 
months of the Council's establishment. Through the development of the 
strategic action plans, the Council, with stakeholder and public 
participation, will identify actions to achieve these priority 
objectives. Each strategic action plan would identify specific and 
measureable near-term, mid-term and long-term actions, with appropriate 
milestones, performance measure, and outcomes to meet each objective.
    In addition, the National Ocean Council may identify additional or 
different priority objectives in years to come. It is the function of 
the National Ocean Council to periodically update national priority 
objectives and review and provide annual direction on National Policy 
implementation objectives based on Administration priorities and 
recommendations from the Deputy-level.
    The National Ocean Council will also begin to immediately implement 
the three-phased approach, as outlined in the Final Recommendations of 
the Ocean Policy Task Force (Final Recommendations), to develop and 
implement coastal and marine spatial planning in the United States. 
This bottom up, flexible, regional approach to coastal and marine 
spatial planning will allow the regions to identify priorities and 
objectives for such planning to address.
EO on carp control
    The Great Lakes are included in the scope of the Executive Order 
and Task Force Final Recommendations. Although the Great Lakes are 
largely State waters, federal regulatory authorities apply in the Great 
Lakes and they will benefit from improved, integrated coordination. 
Like our ocean areas, the Great Lakes are subject to increasing 
demands, user conflicts, and conservation concerns, such as invasive 
species. The National Policy seeks to establish and implement an 
integrated ecosystem protection and restoration strategy that is 
science-based and aligns conservation and restoration goals at the 
Federal, State, tribal, local and regional levels, ultimately informing 
agency decision-making under existing statutory and regulatory 
authorities. For example, under the Executive Order, the work of the 
Great Lakes Restoration Initiative addressing the control and 
prevention of invasive species will inform the regional coastal and 
marine spatial planning process, and the resultant coastal and marine 
spatial plan developed by the Great Lakes Regional Planning Body will 
likely account for measures necessary to prevent the spread and 
introduction of such species.
    Question 9. Regarding the Asian carp found in Lake Calumet in June 
2010, has the Administration analyzed where that fish came from? An 
additional discovery was made of an 80-pound fish in a land-locked 
lake--is there any way to tell whether these fish have traveled through 
the natural pathways, or whether they were deposited into the 
reservoirs by ``human'' actions?
    Answer. With reference to the Asian carp found in Lake Calumet in 
June 2010, Southern Illinois University has analyzed the otolith (ear 
bone) microchemistry and compared that information with existing 
otolith chemistry data from Asian carp captured in the Illinois, 
Mississippi, and Missouri Rivers and data on otolith chemistry from 
other fish species collected from these three rivers, Illinois 
tributaries, and Lake Michigan to determine whether stable isotopic and 
trace element compositions of otoliths from the two bighead carp might 
provide some insight into the environmental history of these two fish. 
Results of this comparison were inconclusive. A press release from IL 
DNR with additional information on the analysis of the specimen has 
been issued.
    It may be possible to determine the origin and movement of the 
additional Asian carp (``land-locked'') using existing methods and 
technology (e.g. analyses of otolith microchemistry, genetics, and 
other life history information). However, no conclusion has been made 
at this time regarding these fish.

     Responses of Nancy Sutley to Questions From Senator Brownback

    Question 1. Please describe the impact that other invasive species 
have had on the Great Lakes. How would the introduction of the Asian 
Carp into the Great Lakes compare in environmental and economic harm, 
as these other invasive species?
    Answer. Several species clearly have been documented as causing 
significant harm to the Great Lakes ecosystem. Invasion of the sea 
lamprey was a major cause of collapse of lake trout populations, and 
associated sport and commercial fisheries in the Great Lakes. Although 
progress continues in controlling sea lampreys, lake trout populations 
in many areas of the Great Lakes are supported mostly by stocking zebra 
and quagga mussels have invaded the Great Lakes and caused significant 
harm. One study, which was completed in 2005, estimated economic losses 
of invasive species at a minimum $5.7 billion dollars per year in the 
Great Lakes Basin. Commercial and sport fishing suffer the most from 
the biological invasions, with about $4.5 billion in losses reported 
for the Great Lakes Basin.
    No quantitative models have been developed that predict ecologic 
and economic impacts of Asian carp, if they become established in the 
Great Lakes. Therefore, expert opinion of those impacts must be relied 
upon. A risk assessment, led by U.S. Fish and Wildlife Service on 
behalf of the U.S. Army Corps of Engineers, surveyed a panel of 9 
experts. All but one of those experts concluded that the risk that any 
self-sustaining population of Asian carp located in the CAWS could move 
from the CAWS into the Great Lakes was unacceptably high, and that the 
establishment of a self-sustaining population of Asian carp could have 
negative environmental impacts, economic impacts, and impact on social 
and political constructs. Experts were either moderately or highly 
certain of their predictions of impacts.
    Question 2. Please describe the funding levels for the Great Lakes 
Restoration Initiative.
    Answer. GLRI was funded at $475M in 2010 and the President's 2011 
budget requested $300M.
    Question 3. Have you developed a cross-cut budget amongst all the 
cooperating agencies to determine how much is being spent on addressing 
the issue between Federal, state, and local agencies?
    Answer. The Asian Carp Control Strategy Framework is the guiding 
document that describes the 32 short and long term activities that the 
Federal, State, and Local agencies are implementing to preclude the 
establishment of a self-sustaining population of Asian carp in the 
Great Lakes. This document also contains cross cutting budget 
information relating to what each Agency is spending on base program 
efforts and utilization of GLRI monies to combat Asian carp.

      Responses of Nancy Sutley to Questions From Senator Sessions

    Question 1. In your evaluation of the best long-term solution for 
preventing the Asian carp threat, do you plan to consider the inland 
waterways and the economic effect that could occur should the answer be 
to permanently sever the connection between the Great Lakes Basin and 
the Mississippi River watershed?
    Answer. Yes. The U.S. Army Corps of Engineers Great Lakes 
Mississippi River Inter-basin Study (GLMRIS) will determine the 
feasibility of the options to prevent or reduce the risk of aquatic 
nuisance species transfer between Great Lakes and Mississippi River 
basins through aquatic pathways. GLMRIS will identify all potential 
hydrologic connections, including all episodic and anthropogenic links, 
as well as exploring the greater realm of current and potential future 
invasive species, in addition to the Asian carp. Alternatives that 
would alter the existing flow, capacity, or uses of existing waterway 
systems will require sufficient analysis to provide information that 
will allow adequate understanding of the expected impacts on water 
quality, the environment, flooding risks, economic uses, and uses for 
public safety, and critical infrastructure, as well as the likely 
benefits from avoiding impacts from Asian carp.
    Within GLMRIS, the Corps intends to develop the type and quality of 
information needed to support decision making on alternatives that may 
alter the existing flow, capacity, or uses of the Chicago waterways. In 
particular, economic studies will be conducted to identify and quantify 
the long-term impacts each proposed control has on the basins' users, 
including commercial and recreational navigation and commercial and 
sports fisheries. The GLMRIS economics investigations will involve 
extensive data collection and analysis, such as surveys of affected 
users to elicit information on the response to lock closures, among 
other alternatives, and quantify the user-specific cost and other 
impacts.
    Question 2. Do you believe that application of toxicant is a cost-
effective way to combat the Asian carp issue?
    Answer. The U.S. Fish and Wildlife Service supported Illinois 
Department of Natural Resources' decision to use rotenone (a fish 
toxicant) in two locations (in December 2009 and May 2010) within the 
Chicago Area Waterways System. The Federal Government will continue to 
use, and support use by its partners, of an integrated pest management 
(IPM) approach for containing, controlling, and possibly eradicating 
Asian carp. The IPM approach employs an integrated, complementary and 
coordinated set of tools (e.g., electrical barriers, harvest, 
rotenone), applied in a manner to effectively and efficiently reach 
Asian carp population management goals. The set of tools that the 
Federal Government will use, or support use by its partners, will 
depend on the details of: Asian carp distribution and abundance, 
physical environment, native species potentially impacted by use of 
proposed management tools, and risk of Asian carp becoming established 
in the Great Lakes (and other ecosystems in the U.S. where Asian carp 
have not yet invaded).
                                 ______
                                 
      Responses of John Rogner to Questions From Senator Stabenow

    Question 1. On July 14, 2010, the Indiana Department of Natural 
Resources announced a plan to use a mesh barrier to prevent the 
potential movement of Asian carp up the Wabash River system into the 
Maumee River. Do you believe such a barrier is sufficient to prevent 
the movement of Asian carp through that system? Are there other 
preventative measures that should be taken to ensure that all potential 
pathways to the Great Lakes are covered?
    Answer. We support Indiana DNR's use of mesh fencing as a short-
term risk reduction measure to address the advance of Asian carp up the 
Wabash River system and their potential movement into the Maumee River, 
a tributary to Lake Erie. Inspection and maintenance of the mesh fence 
after every significant water level rise, is necessary and we 
understand that a permanent solution to prevent Asian carp from being 
able to pass through this area during flood conditions is currently 
under development.
    We support expanding the use of E-DNA testing throughout the Great 
Lakes Basin as an additional preventive measure that should be taken to 
protect the Great Lakes.
    Question 2. In your opinion, is the monitoring and sampling being 
done above the existing barriers in the Chicago area waterways 
sufficient at this time, or would additional resources be beneficial? 
Is there anything more that should be going on that is not?
    Answer. We have a high level of confidence that the plan we have 
developed for monitoring and sampling above the barriers for this 
season is sufficient, however if we do find a population of Asian carp 
above the barrier we would need additional resources for a large scale 
eradication program. It is important to note that in these challenging 
economic times the financial support of the GLRI has been critical to 
the success of our efforts and we recognize and appreciate the support 
of the Congress.
    Our monitoring and sampling plan is dynamic, flexible and is 
constantly reviewed and evaluated against new data. We have and will 
continue to modify our plan accordingly as the situation warrants.
    Question 3. Do you anticipate you will continue to find Asian carp 
above the existing barriers as the searching and monitoring continues?
    Answer. Based on the extensive monitoring and sampling of the 
Chicago Waterway System we have completed above the barrier system we 
know that if there are Asian Carp present they are in very low numbers. 
However we are maintaining a high level of vigilance and are continuing 
our extensive searching and monitoring operations above the barrier.

      Responses of John Rogner to Questions From Senator Brownback

    Question 1. Please describe the incentive programs you have 
developed to enlist commercial fishermen into the goals of the 
Framework, and as part of the Great Lakes Restoration Initiative, to 
address the Asian Carp.
    Answer. The Illinois Department of Natural Resources is entering 
into an agreement with the Illinois Department of Commerce and Economic 
Opportunity (DCEO) for the administration of the Asian Carp Training, 
Certification, Incentives, and Market Development Program during State 
Fiscal Year 2011. This effort has two component parts: the first 
includes a series of training and certification programs for commercial 
fisherman. The second is a three tiered program of performance based 
financial incentives.
    The training and certification programs are designed to ensure safe 
handling of Asian Carp for human consumption. This project will help 
not only with marketing of the Asian Carp to foreign and domestic 
markets but also work to ensure safe operation of the fleet of 
commercial fisherman. Fishermen who complete the program will then be 
eligible for performance based incentives.
    Question 2. Please describe whether you believe there is enough 
monitoring and sampling data currently available to provide adequate 
modeling and protection to further reduce the likelihood of Asian carp 
entering the Great Lakes Basin.
    Answer. At the current time there is not enough monitoring and 
sampling data to provide adequate modeling and protection to reduce the 
likelihood of Asian carp entering the Great Lakes Basin. However we are 
confident that with the completion of the monitoring and sampling plan 
underway and other related research efforts we will have adequate data 
to develop a risk assessment on the likelihood of the establishment of 
a reproducing population of Asian carp in Lake Michigan.
    Question 3. In your testimony you list several dates this year 
where you were notified that eDNA for carp was found in various 
waterways along the CAWS, but that subsequent investigations and 
monitoring of the waterways yielded no Asian carp. What do you believe 
is the reason that no carp were found? Is the e-DNA data unreliable, or 
is it possible that the area covered during the response operations was 
too small in scope?
    Answer. It is unclear at this time why after positive samples of 
Asian carp e-DNA were collected, subsequent investigations yielded no 
Asian carp. However based on our monitoring and sampling in the CAWS we 
know that if Asian carp are present they are in very low numbers, and 
may be below the threshold for detection with traditional fishing and 
sampling gear. We continue to believe that the use of e-DNA is an 
important tool to assist the RCC in making management decisions, 
especially in combination with other sampling efforts such as electro 
fishing, netting, and toxicant applications. E-DNA is reliable, however 
it has limitations in that a positive sample indicates that Asian carp 
may be present in a given area. It does not indicate whether or not 
live Asian carp are present, how many Asian carp may be present, or 
their age, sex or size. These variables must be taken into account, and 
planned research with the University of Notre Dame is designed to 
address these information gaps.
    The past use of e-DNA does not necessarily mean it is unreliable, 
rather as we work with this tool we have come to the understanding that 
it simply does not produce a complete picture. With further refinement 
we anticipate that e-DNA will provide information on population 
densities and distribution which will be needed for a complete risk 
assessment.
    We believe the area covered during the response operations was 
large enough in scope. Our decision making protocol is very straight 
forward. When positive e-DNA hits are discovered, we develop a 
monitoring sampling plan using the appropriate conventional gears that 
best fit the geography and features of that location. If after 
extensive monitoring and sampling prove ineffective and further e-DNA 
samples are positive we then develop a plan for more aggressive 
sampling using toxicants.
    Location and size of treatment areas are selected carefully, taking 
all factors into consideration. The length and location of the 
application and fish removal area for Operation Pelican in May of 2010, 
for instance, was chosen to maximize the opportunity to capture Asian 
carp by including a variety of habitats along a substantial length of 
river channel that previously recorded multiple samples of positive e-
DNA detections.

      Responses of John Rogner to Questions From Senator Sessions

    Question 1. You outline in your testimony the action steps your 
department has taken above the electric barrier-and mention that 
several species of fish have been recovered, but no Asian carp except 
for the commercial fishing group on June 22nd. In your opinion, was the 
approximately $1.7 million cost of the toxicant application on May 20th 
a prudent use of resources?
    Answer. In our opinion the application of rotenone on May 20th was 
a prudent use of resources and was the consensus opinion of the Rapid 
Response Committee. This particular reach of the Chicago Area Waterway 
System (CAWS) produced positive e-DNA detections for Asian carp from 
multiple independent sampling dates in 2009, and one sample date in 
2010. The Asian carp Monitoring and Rapid Response Workgroup's 
monitoring plan indicates that this pattern of e-DNA detection from 
this reach of river warrants a response action to capture and remove 
Asian carp.
    Question 2. Do you believe that application of toxicant is a cost-
effective way to combat the Asian carp issue?
    Answer. The application of rotenone by itself is not the most cost-
effective way to combat the spread of Asian carp, however it has served 
as an important and effective tool for rapid response against Asian 
carp. It is our opinion that the benefits of selectively using rotenone 
to ensure the safety of our Great Lakes far outweigh the cost of such a 
procedure.
    In the December 2009 operation, rotenone was used to prevent the 
spread of Asian Carp to Lake Michigan while the electric barrier system 
was taken down for required maintenance.
    In Operation Pelican in May of 2010 rotenone was applied after 
multiple positive E-DNA samples were recorded and conventional 
monitoring and sampling gears proved in effective.
    While rotenone by itself may not be the most cost-effective way to 
combat Asian carp, it is an effective one, particularly in locations 
with multiple positive e-DNA hits. Prior to use of rotenone, a wealth 
of other options are considered. Intensive sampling is performed to 
determine the best cause of action; if multiple e-DNA hits are detected 
and conventional techniques are ineffective rotenone is believed to be 
the best solution.
                                 ______
                                 
        Responses of Tim Eder to Questions From Senator Stabenow

    Question 1. On July 14, 2010, the Indiana Department of Natural 
Resources announced a plan to use a mesh barrier to prevent the 
potential movement of Asian carp up the Wabash River system into the 
Maumee River. Do you believe such a barrier is sufficient to prevent 
the movement of Asian carp through that system? Are there other 
preventative measures that should be taken to ensure that all potential 
pathways to the Great Lakes are covered?
    Answer. The Great Lakes Commission does not possess the technical 
knowledge to assess whether this response is adequate to prevent Asian 
carp from moving between the Wabash and Maumee River watersheds during 
flood events. We defer to the competent federal and state agencies on 
this matter. Generally, we believe this is a good first step to 
addressing this pathway for inter-basin transfer of aquatic invasive 
species. Plans are proceeding to construct a more permanent barrier.
    Continued identification of pathways such as the Wabash-Maumee is 
critical to safeguard the ecological and economic security of the Great 
Lakes watershed. A systematic, ongoing risk assessment and response 
effort must be initiated immediately and sustained as needed, including 
consistent monitoring.
    Question 2. In your testimony, you stated that along with the Great 
Lakes and St. Lawrence Cities Initiative, the Great Lakes Commission 
intends to initiate an independent study to research options for 
ecological separation. Please explain how this study will be carried 
out and how the independent study will complement, support, and help 
accelerate the Great Lakes and Mississippi River Interbasin Study 
(GLMRIS), and not duplicate it.
    Answer. The study effort, entitled Envisioning a Chicago Waterway 
System for the 21st Century, will provide a detailed evaluation of 
potential scenarios for ecological separation, including their costs, 
benefits and impacts. It will evaluate the economic, technical, and 
ecological feasibility of eco-separation by illustrating scenarios to 
achieve it, along with associated costs, impacts and potential benefits 
of a re-engineered hydrologic system for greater Chicago. It is 
intended to support and complement the work of the GLMRIS study by 
defining, assessing and vetting scenarios for ecological separation. It 
is proceeding on a path toward completion (winter of 2011-12) that is 
much faster that the timetable for the GLMRIS study. The project, which 
has already begun, includes an extensive effort to engage users of the 
waterway in the Chicago area, including those who currently depend on 
current uses of the waterways for commercial and recreational 
transportation, stormwater and wastewater management. Key products will 
include a comprehensive report, a series of supporting technical sub-
documents, and a clear and concise summary for a lay audience. 
Additional information is available online at http://www.glc.org/ans/
chicagowaterway.html
    Question 3. Could you please summarize what the role of states and 
other non-federal entities are in the on-going prevention of the 
migration of Asian carp?
    Answer. Among the Great Lakes states, Illinois has been on the 
front line of Asian carp prevention. The state's Department of Natural 
Resources (DNR), in particular, has had a strong role in Asian carp 
prevention activities. Illinois DNR has monitored the Asian carp 
migration up the Illinois River since the mid 1990s and has contributed 
$1.8 million to fund construction of the dispersal barrier system. 
Illinois led the response effort (rotenone application) that took place 
in December 2009. In addition to Illinois DNR, over 35 other non-
federal entities, including Environment Canada and fisheries management 
agencies from all seven of the other Great Lakes states, participated 
and contributed time and resources to this response effort.
    Illinois DNR has been identified as a lead agency in a number of 
prevention actions outlined in the Asian Carp Control Strategy 
Framework. The Framework was developed by the Asian Carp Regional 
Coordinating Committee, which in addition to federal representation 
includes the Illinois DNR, the Great Lakes Fishery Commission, the City 
of Chicago and the Metropolitan Water Reclamation District of Greater 
Chicago. These entities will continue to work together in coordinating 
and implementing the activities outlined in the Framework. Additional 
information on their roles and responsibilities is available online at: 
http://asiancarp.org/Wordpress/about-the-committee/.
    Another example of non-federal involvement in Asian carp prevention 
activities is the role of the University of Notre Dame and The Nature 
Conservancy. Working in partnership, these two entities developed the 
eDNA monitoring techniques that have indicated the presence of Asian 
carp in the waterways around Chicago. They have an ongoing role in 
monitoring efforts.
    Finally, many non-federal entities participate and contribute their 
time and expertise to a variety of forums that advance aquatic nuisance 
species prevention and control efforts, including the Dispersal Barrier 
Advisory Panel and the Great Lakes and Mississippi River Basin Panels 
on Aquatic Nuisance Species. The Great Lakes states also contributed 
funds to the construction of the dispersal barrier system in the 
Chicago Sanitary and Ship Canal.
    Question 4. You emphasize the need for the federal agencies to put 
money in their budgets toward preventing the migration of Asian carp, 
can you summarize what the non-federal cost-shares have been, or are 
expected to be?
    Answer. Below is a summary of non-federal contributions to the 
major Asian carp eradication effort conducted in December 2009. In 
addition, the states and other non-federal entities contribute a great 
deal of staff time and in-kind support to both site-specific and 
regional efforts to safeguard the Great Lakes against the introduction 
of Asian carp and other aquatic invasive species.
Non-federal monetary contributions:

  <bullet> Quebec, Canada (Donation) $10,000
  <bullet> Ohio DNR (Donation) $20,000
  <bullet> Great Lakes Fishery Commission (Donation) $50,000

Non-monetary partner contributions:

  <bullet> Michigan (Labor and Chemicals) $80,025
  <bullet> Indiana (Labor and Expenses) $11,000
  <bullet> Wisconsin (Labor and Expenses) $11,500
  <bullet> New York (Chemicals) $87,750
  <bullet> Canada (Labor and Expenses) $14,000
  <bullet> Cook County Forest Preserve District (Labor) $5,375
  <bullet> Great Lakes Fisheries Commission (Labor and Expenses) $2,745
  <bullet> Wisconsin Sea Grant (Labor and Expenses) $3,500
  <bullet> Illinois Incident Management Team (Labor and Expenses) 
        $10,250

       Responses of Tim Eder to Questions From Senator Brownback

    Question 1. Please describe how you would accelerate the studying 
of the basins, and why you believe the Corp of Engineers' would not be 
the appropriate entity to conduct the study. Who do you believe should 
be the lead on studying the basins?
    Answer. We assume this question refers to the Corps' interbasin 
transfer study. We believe the Corps is the appropriate entity to 
conduct the study, but believe that it must be accelerated and 
completed on a quicker timeframe. We also believe that it is critical 
that the study be coordinated closely with state agencies to build on 
their intimate knowledge of local watershed dynamics. In this regard, 
we note the State of Indiana's detailed knowledge to the interface 
between the Wabash and Maumee River watersheds and the potential for 
inter-basin transfer of Asian carp in this area. In addition, the Corps 
study effort can be accelerated through the use of existing data 
previously collected by other federal, state and local entities, as 
opposed to using the study to collect new data. At the same time, we 
believe that a study such as the one the Great Lakes Commission has 
begun in coordination with the Great Lakes and St. Lawrence Cities 
Initiative (Envisioning a Chicago Waterway System for the 21st Century) 
is an appropriate means to assist the Corps in accelerating its study. 
Our study will also provide the states and cities with more influence 
on outcomes and options than will the Corps' study.
    Question 2. What short-term actions would you do, that are 
different than those currently being pursued?
    Answer. My testimony provided recommendations for new and 
strengthened immediate actions to safeguard the Great Lakes from the 
invasion of Asian carp. In brief, these include:

  <bullet> Establish a more organized and coordinated federal response 
        to Asian carp: Improve how federal agencies are organizing and 
        coordinating their response efforts to reflect a greater sense 
        of urgency and accountability; establish a single point of 
        contact overseeing the collective federal effort with the 
        appropriate authority; provide federal agencies with all 
        necessary authorities and resources; and respect state 
        authorities and leverage their knowledge of watersheds within 
        their jurisdictions.

    [The establishment of a single point of contact to oversee and 
        coordinate federal efforts is especially critical. This has 
        been pledged by the Obama Administration and we understand the 
        appointment of a coordinator will take place within the month.]

  <bullet> Improve communication and coordination with states and other 
        partners: The Regional Coordinating Committee (RCC) should be 
        more transparent and increase its communications with the 
        states and others. The RCC should consider expanding its 
        membership to include all of the Great Lakes states.
  <bullet> Assess risks throughout the watershed divide: Conduct risk 
        assessments on all tributaries of the Mississippi River and 
        artificial connections between the Mississippi watershed and 
        Great Lakes basin which Asian carp can potentially use to 
        breach the divide between the two ecosystems. Once the highest 
        risk locations are identified, use eDNA and traditional 
        monitoring to track movement of carp and ensure early 
        detection. Establish rapid response plans to thwart any 
        possible migration.
  <bullet> Focus on the Chicago Area Waterway System (CAWS) as the 
        highest priority: The RCC should continue to focus the brunt of 
        its efforts on the CAWS. The continued reports of positive eDNA 
        samples upstream of the electric barrier make it essential that 
        response activities continue to be focused in the Chicago 
        region.
  <bullet> Immediately accelerate eDNA testing: Maintain and increase 
        the use of eDNA testing to document the extent of Asian carp 
        populations both in Chicago-area waterways as well as other 
        areas where carp may be able to cross from the Mississippi 
        River watershed into the Great Lakes.

    [I noted in my testimony that eDNA testing had been suspended when 
        the protocol was in the process of being transferred from Notre 
        Dame University to the Corps of Engineers. We understand that 
        in the intervening weeks, some progress has been made to resume 
        eDNA testing but it is uncertain whether this technique is now 
        being used.

    Question 3. Please describe how the Basin has addressed other 
invasive species Great Lakes. Are there any lessons learned that could 
be applied to the Asian Carp?
    Answer. Our experience in the Great Lakes region has shown that 
once aquatic invasive species (AIS) become established, controlling 
their spread is both technically difficult and expensive, with complete 
eradication being nearly impossible. Therefore, prevention of AIS 
introductions must remain our top priority. For example, approximately 
$20 million is spent annually to research and implement control 
technologies for the parasitic sea lamprey which devastated Great Lakes 
fisheries in the mid 1900s. An additional estimated $1 billion a year 
in damages and associated control costs is attributed to zebra and 
quagga mussels.
    When prevention efforts fail and AIS introductions occur, policy 
makers, resource managers, outreach specialists and other stakeholders 
need the capacity to detect and respond to new threats. There is a 
critical period between introduction and establishment of a new AIS 
population when the focus of management must shift rapidly from 
prevention to control/containment. It is during this brief window where 
the opportunity exists to stop the permanent establishment of a new AIS 
population. Intervention through early detection and rapid response is 
a critical strategy for preventing the establishment of new AIS 
populations. Early detection and rapid response efforts increase the 
likelihood that invasions will be addressed successfully while 
populations are still localized and population levels are not beyond 
that which can be contained and eradicated.
    A recent example occurred when the fish virus Viral Hemorrhagic 
Septicemia (VHS) was discovered in the Great Lakes. The pathogenic 
effects of the microbe are manifested by massive die-offs among 
infected fish. Once introduced into a wild fish community, the virus is 
essentially impossible to eliminate and difficult to control. The 
economic implications associated with VHS invasions are enormous given 
the threats to the sport and commercial fisheries. In response, the 
states quickly took measures to prevent the spread of the virus, 
including increased surveillance, restrictions on bait fish movement, 
and a moratorium on hatchery production of selected high-risk fish 
species. The federal government (U.S. Department of Agriculture--Animal 
and Plant Health Inspection Service) is also implementing emergency 
policies in response to this threat. While swift action was necessary 
to restrict interstate movement of certain fish species to prevent VHS 
from spreading beyond infested waters, coordination and communication 
remained a continuing challenge.
    The overarching framework for addressing invasive species in the 
Great Lakes region is through the structure provided by the Great Lakes 
Panel on Aquatic Nuisance Species and individual state management plans 
(SMPs) for invasive species prevention and control. The Great Lakes 
Panel provides a valuable forum for information exchange, coordination 
and priority identification on a regional level. The SMPs provide a 
strategy for invasive species management on a state and local level. 
Unfortunately, neither effort has received sufficient funding for more 
than a decade, and thus, efforts have been limited. State and local 
stakeholders are on the front lines of AIS management and there is a 
critical need for more resources to build their capacity to prevent, 
detect and respond to new aquatic invasions.
    Question 4. Please describe who you believe is in control, on 
behalf of the US Government, as it relates to these efforts.
    Answer. No single agency--federal or state--is in control of 
efforts to safeguard the Great Lakes against Asian carp and other 
damaging aquatic invasive species. Due to their unique mandates, 
authorities and technical capabilities, the Corps of Engineers, U.S. 
EPA, U.S. Geological Survey, NOAA, and the Coast Guard all have 
important roles and responsibilities. Similarly, the Great Lakes states 
have both delegated authorities and long-standing historical knowledge 
of and engagement with local river systems and their watersheds. The 
Asian Carp Control Strategy Framework illustrates the varied legal 
authorities and technical capabilities that these agencies bring to 
this challenge. While the Commission has concerns about the long-term 
adequacy of the Framework, as well as the operation and composition of 
the Asian Carp Regional Coordinating Committee, we believe it is an 
important effort to integrate and coordinate contributions from 
multiple federal and state agencies. We support the committee's 
continued operation, oversight and expansion, where warranted, to 
include other entities. However, to provide further coordination and 
centralized direction, we believe the appointment of a single 
coordinator is a critical additional step to provide centralized 
direction and ongoing coordination.

         Response of Tim Eder to Question From Senator Sessions

    Question 1. The Corps has indicated that a study of the magnitude 
that is being proposed would require at least 5 years. How can a 
mandate of completing the study in 1.5 years lead to anything that we 
could have confidence in?
    Answer. With adequate resources and a clear focus on options for 
achieving ecological separation in the Chicago area, a detailed and 
credible study can be completed in approximately 18 months. The Corps 
of Engineers clearly requires additional resources to conduct the 
GLMRIS study. The Corps' budget for the study at present is only 
$500,000, which is insufficient. However, we understand that they plan 
to collect a great deal of data and information on their own, rather 
than building in existing resources. This approach will lengthen the 
time needed to generate results. They also appear to be taking a very 
broad and comprehensive approach, rather than focusing narrowly on the 
critical priority of developing feasible scenarios for ecological 
separation in the Chicago area. Our study will assemble a team of 
experts from the private sector and academia that can move quickly to 
provide a multi-disciplinary analysis of the Chicago Area Waterway 
System and potential approaches for achieving ecological separation 
that prevent the inter-basin transfer of aquatic invasive species while 
also accommodating the system's beneficial uses. While our study 
clearly will not be the ``final word'' on this complex topic, we 
believe it will provide a credible analysis that will inform the 
discussion and provide a foundation for further work. We expect that 
our study will complement ongoing work by the Corps and other federal 
agencies. In addition, because it is being led by the Great Lakes 
states and cities, it will provide a unique perspective from that 
provided by the Corps.
                                 ______
                                 
       Responses of Leon Carl to Questions From Senator Stabenow

    Question 1. On July 14, 2010, the Indiana Department of Natural 
Resources announced a plan to use a mesh barrier to prevent the 
potential movement of Asian carp up the Wabash River system into the 
Maumee River. Do you believe such a barrier is sufficient to prevent 
the movement of Asian carp through that system? Are there other 
preventative measures that should be taken to ensure that all potential 
pathways to the Great Lakes are covered?
    Answer. There are several vectors by which Asian carps could enter 
the Great Lakes. Some, such as intermittent connection between the 
Wabash and Maumee rivers, are hydrological linkages between infested 
waterways and the Great Lakes. These connections are currently being 
inventoried by the U.S. Army Corps of Engineers (USACE) as part of the 
larger ``Great Lakes and Mississippi River Interbasin Study'' (GLMRIS) 
as part of the multi-tiered efforts of the Asian Carp Regional 
Coordinating Committee described in the Asian Carp Control Strategy 
Framework (Framework). Other vectors, beyond hydrological connections, 
involve human-assisted transport from one basin to the other.
    Invasion biologists use the term ``propagule pressure'' to indicate 
the number and quality of invading organisms as well as the number of 
release events. Published literature shows that propagule pressure is 
directly proportional to the success of invasions. Therefore, 
minimizing the number of colonizing organisms, by methods such as 
installing barriers, is important in preventing successful 
establishment of Asian carps in the Great Lakes.
    Regardless of preventative measures to curtail movement of Asian 
carps from the Mississippi River basin to the Great Lakes through 
hydrological connections, it remains important to continue to educate 
the public on the dangers of human-assisted means by which Asian carps 
could be introduced into the Great Lakes. For example, juvenile Asian 
carps resemble gizzard and threadfin shads and people collecting their 
own baitfishes, or potentially even bait dealers that collect fishes 
from the wild, could inadvertently collect and transport Asian carps. 
Anglers might release unused live baitfish contaminated with Asian 
carps into the Great Lakes watershed. In addition, people may 
purposefully release wild-caught, hatchery-reared, or store-bought 
Asian carps into the Great Lakes watershed for a variety of reasons.
    Question 2. In your testimony, you mentioned that the United States 
Geological Survey is conducting experiments using seismic technology as 
an Asian carp control strategy. At this time, are you able to provide 
the Subcommittee with an update regarding seismic activity for control 
efforts? When will the field testing begin and how soon will the 
results be available? Answer:
    Answer. The U.S. Geological Survey (USGS) is conducting a study 
entitled, ``Use of Seismic Technology to Divert or Eradicate Invasive 
Asian Carp'' as part of the Framework. This study focuses on lethal and 
sub-lethal effects of sonic bursts (produced by hydroguns) to divert, 
trap, or eradicate invasive Asian carps. Initial testing ended late 
June and examined the effects of sound wave frequency on various age 
classes of trout (used as a surrogate species) at a range of distances 
from the hydrogun. Preliminary results demonstrated that a single blast 
from a hydrogun killed fish up to 6 meters away (about 20 feet) within 
24 hours of exposure by rupturing the swim bladders and inducing 
internal hemorrhaging, although most mortality was not immediate. Fish 
mortality increased with proximity to the hydrogun and delayed 
mortality occurred during the first 48 hours from the exposure.
    Peak sound pressure levels were measured as high 254 decibels at 3 
feet away and as high as 210 decibels from the hydrogun at 130 feet 
indicating that the hydroguns could potentially used to deter fish 
movements. Summary tables of the results from this project have been 
developed for initial interpretation of findings. More rigorous 
statistical analysis will be completed by the end of August. The next 
phase of the study began August 9 and consists of logistical tests to 
determine how to most efficiently transport the hydrogun through the 
water, optimize fish capture capabilities, and effectively use this 
technology in a river system for the third phase of testing. Three 
different sized hydroguns have been procured for these tests (343 cubic 
inch, 80 cubic inch, and 1 cubic inch) and will be tested on larger 
fish comparable in size of adult Asian carps.
    Field testing of this technology in a river with Asian carps 
(bighead and/or silver carps) is expected to begin in mid to late 
September. Contracts are currently being drawn up. USGS is in contact 
with DNRs in Missouri and Illinois to determine the best location to 
conduct the testing. We expect to have some initial summary data 
available about 4 weeks after the field testing and the majority of the 
analysis completed by the end of calendar year 2010.
    Question 3. I understand there are efforts underway to look at the 
possibility of migration of Asian carp through underground rivers or 
other hydrologic connections, how long will it take to have a better 
idea of what the potential pathways are?
    Answer. As explained, the USACE will evaluate surface water 
connections between the Great Lakes and Mississippi River basins as 
part of the GLMRIS. These will include surface water connections 
outside the Chicago area, along the length of the basin divide. USGS 
continues to work with the USACE, by providing technical assistance, 
primarily in the Wabash River and Maumee River focus area, to support 
completion of the GLMRIS. For example, USGS is working with local 
authorities to obtain, analyze, and provide detailed topographic data 
that includes the Wabash River-Junk Ditch-Maumee River area. These data 
are being combined with information on channel profile and flow model 
data to develop hydraulic simulation models to assess Asian carp entry 
from this connection. USGS is also installing a new stream gage within 
the area of concern to provide data needed to better define flow 
exchanges in the Eagle Marsh area.
    The USGS could provide further technical support for the GLMRIS in 
the forms of hydrologic simulation modeling; synthesizing bathymetric 
data with Digital Elevation Models and hydrologic measurements; model 
validation; geophysical surveys using ground penetrating radar and 
electromagnetic induction to locate culverts, drainage tiles, voids, 
and other subsurface features that could convey Asian carps or that 
could problematic for any potential Asian carp control structures; and 
soil core data to identify distribution and thickness of organic soils 
that could affect structure stability. Lastly, USGS has Water Science 
Centers in each of the Great Lakes States and can provide similar 
hydrologic and hydraulic data, analyses, and modeling support 
throughout the Great Lakes drainage. All of these Centers are providing 
support for the Preliminary Interbasin Connections Risk 
Characterization for all potential surface water connections between 
the Great Lakes and Mississippi River Basins, a part of the larger 
GLMRIS effort.
    Non-surface water connections between the Mississippi River and 
Great Lakes watersheds are outside the scope of GLMRIS but are being 
addressed in a study entitled, ``Feasibility Assessment of Inter-basin 
Transfer of Aquatic Invasive Species'' being conducted by the USGS as 
part of the Framework. This project will determine the frequency via 
the surface-water pathway of potential for movement of aquatic invasive 
species (AIS) from the Des Plaines River to the Chicago Sanitary and 
Ship Canal (CSSC) during flooding conditions observed previously. It 
will also determine the potential for movement of AIS from the Des 
Plaines River and/or the Illinois and Michigan Canal to the CSSC via 
groundwater flow through fractured bedrock present between these 
surface water bodies. Coordination efforts with USACE to avoid 
duplication are underway.
    To date, compilation and analysis of available information on area 
geology and hydrology has been performed; compilation of hydraulic, 
water-quality, and sediment-quality data from USGS databases has begun; 
field surveys of bathymetric, temperature, and specific conductance of 
the CSSC has been completed. Field surveys of sediment type and 
bathymetry of areas where bedrock is exposed at or near the land 
surface of the Des Plaines River (DPR) has been completed. Fracture 
orientations in the dolomite have been measured and a field assessment 
of stratigraphy in the area performed and surface geophysical surveys 
completed at several candidate sites. Data analysis has begun and a 
preliminary write up of the analysis of the data collected has been 
completed and is under review. USGS will have information by the end of 
summer 2011 on whether ther is a connection between the Des Plaines 
River and the Chicago Sanitary and Ship Canal through the fractured 
bedrock which separates these two water bodies.

       Responses of Leon Carl to Questions From Senator Brownback

    Question 1. Statistically, is it unusual to find only one fish, 
this size, without finding any other similar fish in the area?
    Answer. The statistical probability of capturing fish is related to 
the density of the species, the vulnerability of the particular species 
to the types of gear used, and the amount of fishing effort put forth. 
Therefore, because a bighead carp was captured in Lake Calumet, it 
would be statistically unlikely to find only one fish without similar 
fish in the area, if the species in question was abundant, reasonably 
catchable with the gear in use, and if a reasonably large effort were 
expended in trying to catch the fish. If the species is rare and/or 
difficult to catch, or if only a little effort was expended, one would 
expect to catch no fish or very few fish.
    In this case, a high degree of effort was expended to not only 
catch this fish, but also to capture any other fish in the area with 
additional sampling effort after the bighead carp was captured. In 
addition, Asian carps have low catchability, meaning that they have the 
ability to avoid gears typically used to capture fish. Thus, the 
density of Asian carps is unclear, but is probably low at this time, 
based on the capture of only one fish.
    Question 2. In your testimony you state that finding just one fish 
does not pose an imminent threat. What number would you consider would 
cause such an imminent threat?
    Answer. Our best understanding is that the threat to the Great 
Lakes is very low with very few fish present and increases gradually as 
the number of Asian carps increases. If one female and one male fish 
are present, the threat of establishment is not zero, but is extremely 
low. We are unable to statistically quantify the rate at which the 
threat increases with increasing number of fish because of the 
complexity of the system and limits on our understanding of the biology 
of the fish. We do not know whether an unlimited number of introduced 
fish would create a self-sustaining population in the Great Lakes. For 
reference, one successful invasion of Asian carp to the Gobindsagar 
Reservoir in Asia is thought to have been the result of an escape of 
only about 50 fish, but we cannot be sure that there were no other 
unrecorded releases that contributed to the establishment of that 
population.
    Question 3. Please further describe the work that you are 
undertaking to address hydraulic connections between the Great Lakes 
and Mississippi River Basins, as they relate to access points for carp 
eggs, larvae, juvenile fish and adults.
    Answer. The previously discussed ``Feasibility Assessment of Inter-
basin Transfer of Aquatic Invasive Species'' being conducted by USGS 
and the GLMRIS being conducted by the USACE are the primary studies 
described in the Framework that assess hydraulic connections between 
the Great Lakes and Mississippi River basins. The USGS has no further 
ongoing research in this area, so we have referred the question to the 
USACE and the following information was provided to more fully address 
your concern.
    Amongst other efforts in addition to those described in the 
Framework, USACE has developed and is applying permanent and interim 
control measures to address the threat of Asian carp migration via the 
Chicago Area Waterway System (CAWS). USACE is operating and improving 
the electric barrier system in the CSSC. The operating parameters of 
this barrier are being further evaluated to ensure that the barrier 
deters all sizes of Asian carps. In addition, USACE is building a 
barrier system along the Des Plaines River and Illinois and Michigan 
Canal, which both flank the CSSC. This bypass barrier will prevent fish 
from bypassing the electric fish barrier during flooding of these two 
waterways, which could create temporary hydrologic connections to the 
CSSC. USACE is also installing screens on the sluice gates at the T.J. 
O'Brien Lock and Dam to impede fish passage. The Assistant Secretary of 
the Army for Civil Works has also approved the installation of an 
acoustic-bubble-strobe deterrent system at the Brandon Road Lock and 
Dam on the Des Plaines River, pending authorization and funding.
    In GLMRIS, USACE intends to assess surface water connections 
between the basins as they relate to access points for all life-cycle 
stages of aquatic invasive species. The USACE has organized the GLMRIS 
to proceed on two basic tracks simultaneously. One track will focus on 
the CAWS and the unique challenges posed in the evaluation of permanent 
measures to prevent the transfer of all manners of aquatic invasive 
species, not just Asian carps, from one basin to the other through that 
waterway system. The CAWS is the most direct and highest risk pathway 
for aquatic species transfer between basins, and thus requires priority 
of effort. The second track, as discussed above, has begun with a 
reconnaissance-level effort to identify and characterize the risk of 
all other potential aquatic passageways between the Great Lakes and the 
Mississippi River basins. This risk characterization is expected to be 
complete in September, 2010.
    Question 4. Could you please elaborate on the species specific 
chemical controls USGS is working to develop, and whether there are 
examples of these controls working in other situations of invasive 
species eradication? I'm curious what chemical could be developed that 
would only affect Asian carp and not the native fish within the Great 
Lakes.
    Answer. Application of toxicants is an important tool used to 
manage and control nuisance and invasive aquatic organisms. Current 
toxicants registered with the U.S. Environmental Protection Agency for 
this use are non-selective and applied as immersion exposures, meaning 
that desirable and undesirable species are equally exposed to the 
toxicant. There are no current methods to specifically target Asian 
carps for control within aquatic ecosystems. USGS is conducting 
research to develop chemical control methods with higher specificity 
for Asian carp to better control or eradicate them without harm to 
native species and habitats.
    There are two ways to target Asian carps using toxicants: (1) a 
chemical that is selectively toxic to Asian carps could be identified 
and methods developed for its application to control Asian carps in the 
field; and (2) the toxicity of a currently-registered, general use 
toxicant could be manipulated such that the toxicity is delivered only 
to Asian carps. USGS is conducting research along both these lines of 
reasoning.
    In the first case, a compound previously identified as being 
selectively toxic to common carp is being evaluated for its efficacy in 
controlling bighead and silver carps.
    In the second case, USGS is working with the private sector to 
incorporate a currently-registered general use toxicant into a molecule 
that would be developed to be within the size of particles filtered out 
by Asian carps during feeding. The toxicant would be encapsulated, 
acting to stabilize, protect, and efficiently deliver it to the final 
target site of action. Species selectivity will be achieved by 
exploiting differences in enzyme activity in the gills and digestive 
systems among fish species. This technology is currently being used in 
a variety of applications, including vaccination of hatchery fishes. 
Using this technology to control an aquatic invasive species is novel, 
but successfully developing a control tool for Asian carps would 
demonstrate its applicability to the control of other high-profile 
aquatic invasive species such as zebra and quagga mussels.
    This technology could also be used to induce sterility in female 
Asian carps. Fish have unique egg proteins that allow sperm from the 
same species to fertilize the eggs. After identifying these proteins in 
bighead and silver carps, USGS will use methods borrowed from the 
pharmaceutical industry to simulate an immune response which will cause 
females to create antibodies against their own egg proteins, thereby 
causing them to be sterile.
    There are examples of using toxicants to selectively control 
aquatic invasive animals. Most notably is the use of two chemicals (TFM 
and niclosamide) to control sea lampreys in the Great Lakes. The 
Integrated Sea Lamprey Management and Control Program has successfully 
maintained sea lamprey populations at around 10% of their peak 
abundance levels for several decades.
    Question 5. You note in your testimony that the Chicago Area 
Waterway System (CAWS) is only one potential Asian carp entry point to 
the Great Lakes. Where else along potential entry points is sampling 
currently taking place?
    Answer. USGS is currently not conducting sampling for Asian carps 
in or around the CAWS. USGS on-the-ground activity in this area is 
focused on collecting hydrological data and conducting surveys 
necessary to assess the potential for the transport of larval Asian 
carps through bedrock fractures in the Des Plaines River.
    The USACE is supporting monitoring and fish suppression activities 
being led by the Monitoring and Rapid Response Workgroup within the 
CAWS. The USACE may also provide near term assistance to the Ohio 
Department of Natural Resources and the Indiana Department of Natural 
Resources in arranging for procurement of water samples from the Little 
River on the west side of Fort Wayne and the Maumee River to the east 
for Asian carp eDNA analysis.

       Responses of Leon Carl to Questions From Senator Sessions

    Question 1. In your evaluation of the best long-term solution for 
preventing the Asian carp threat, do you plan to consider the inland 
waterways and the economic effect that could occur should the answer be 
to permanently sever the connection between the Great Lakes Basin and 
the Mississippi River watershed? Answer:
    Answer. USGS is not conducting an evaluation of the best long-term 
solution for preventing Asian carps from becoming established in the 
Great Lakes. What is described sounds most like the ``Great Lakes and 
Mississippi River Interbasin Study'' (GLMRIS) being conducted by the 
USACE as part of the multi-tiered efforts of the Asian Carp Regional 
Coordinating Committee described in the Asian Carp Control Strategy 
Framework (Framework).
    USGS has several ongoing research projects on Asian carps that are 
directly applicable to assessing their threat to the Great Lakes, 
however. One is examining the diet habits and requirements of Asian 
carps and then comparing those to the available food resources in the 
Great Lakes. There is reason to believe that Asian carps may be able to 
use Cladophora and bluegreen algae to a greater extent than previously 
believed--two resources sometimes abundant in locations throughout the 
Great Lakes. Another project is using a combination of laboratory 
experiments, hydrological data, and modeling to identify tributaries in 
the Great Lakes in which Asian carps may be able to successfully spawn.
    Question 2. Do you believe that application of toxicant is a cost-
effective way to combat the Asian carp issue?
    Answer. Although fish toxicants (piscicides) are commonly used to 
manage and control nuisance and non-native invasive fishes, they are 
expensive, labor-intensive, and are typically non-selective. The 
development of a selective toxin could be of great value and cost-
effective if, for example, an infestation of Asian carps was found in 
the Great Lakes or potentially even in areas where they are currently 
abundant in the Mississippi River Basin. USGS has ongoing research 
projects as part of the Framework, including ``Technologies Using Oral 
Delivery Platforms for Species-Specific Control'' and ``Identify 
Potential Compounds for Inclusion in a Toxicant Screening Program to 
Identify Potential Selective Toxicants for Control of Asian Carp'' that 
are evaluating a delivery mechanism for a general-use toxicant that 
would make the toxic effect specific to Asian carps and to identify a 
toxicant that is selective for Asian carps, respectively. With such 
control a tool in hand and a well-designed and implemented early 
detection network, managers could respond to positive findings of Asian 
carps in the Great Lakes without killing every fish in the surrounding 
water.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
